<html>
<title> - ATROCITIES IN IRAQ AND SYRIA: RELIEF FOR SURVIVORS AND ACCOUNTABILITY FOR PERPETRATORS</title>
<body><pre>[Joint House and Senate Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






 
                     ATROCITIES IN IRAQ AND SYRIA:


                        RELIEF FOR SURVIVORS AND


                    ACCOUNTABILITY FOR PERPETRATORS

=======================================================================

                                HEARING

                               before the

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 22, 2016

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 114-2-5]
                             
                             
                             
                             
                             
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                            
                             
                             
                             
                             


                       Available via www.csce.gov
                       
                       
                       
                       
                       
                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 21-915 PDF              WASHINGTON : 2016       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                                       
                       
                       
                       
                       
                       


            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               HOUSE

                                                   SENATE

CHRISTOPHER H. SMITH, New Jersey,      ROGER F. WICKER, Mississippi, 
Chairman                               Co-Chairman
ALCEE L. HASTINGS, Florida             BENJAMIN L. CARDIN, Maryland
ROBERT B. ADERHOLT, Alabama            JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas              RICHARD BURR, North Carolina
STEVE COHEN, Tennessee                 JEANNE SHAHEEN, New Hampshire
ALAN GRAYSON, Florida                  TOM UDALL, New Mexico
RANDY HULTGREN, Illinois               SHELDON WHITEHOUSE, Rhode Island
JOSEPH R. PITTS, Pennsylvania
LOUISE McINTOSH SLAUGHTER, 
New York

                                     
                                     
                    EXECUTIVE BRANCH COMMISSIONERS
                                     
                               
  
                      Vacant, Department of State
                     Vacant, Department of Commerce
                     Vacant, Department of Defense

                                  [ii]
                                  
                                  


                     ATROCITIES IN IRAQ AND SYRIA:

                        RELIEF FOR SURVIVORS AND

                    ACCOUNTABILITY FOR PERPETRATORS

                              ----------                               
September 22, 2016

                             COMMISSIONERS

                                                                   Page
Hon. Christopher H. Smith, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Benjamin L. Cardin, Ranking Member, Commission on Security 
  and Cooperation in Europe......................................     5
Hon. Roger F. Wicker, Co-Chairman, Commission on Security and 
  Cooperation in Europe..........................................     7
Hon. Alan Grayson, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     7
Hon. Joseph R. Pitts, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     8

                               WITNESSES

Chris Engels, Deputy Director for Investigations and Operations, 
  the Commission for International Justice and Accountability....    11
David Scheffer, former U.S. Ambassador-at-Large for War Crimes 
  Issues.........................................................    13
Stephen M. Rasche, Esq., Legal Counsel and Director of IDP 
  Resettlement Programs, Chaldean Catholic Archdiocese of Erbil, 
  Kurdistan Region, Iraq.........................................    14
William Canny, Executive Director, Migration Aid and Refugee 
  Services, United States Conference of Catholic Bishops.........    16
Carl A. Anderson, Supreme Knight, Knights of Columbus............    18

                                 [iii]
                                 
                                 
                                 
                                 
                               APPENDICES

Prepared statement of Hon. Christopher H. Smith..................    34
Prepared statement of Hon. Roger F. Wicker.......................    36
Prepared statement of Hon. Benjamin L. Cardin....................    37
Prepared statement of Chris Engels...............................    39
Prepared statement of David Scheffer.............................    44
Prepared statement of Stephen M. Rasche..........................    46
Prepared statement of William Canny..............................    49
Prepared statement of Carl A. Anderson...........................    52

                        MATERIAL FOR THE RECORD

Submissions for the record from David Scheffer...................    56
Submission for the record from Stephen M. Rasche.................    66


                     ATROCITIES IN IRAQ AND SYRIA:



                        RELIEF FOR SURVIVORS AND



                    ACCOUNTABILITY FOR PERPETRATORS

                              ----------                              


                           September 22, 2016

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 10 a.m. in Room 2200, Rayburn House 
Office Building, Washington, DC, Hon. Christopher H. Smith, 
Chairman, Commission on Security and Cooperation in Europe, 
presiding.
    Commissioners present:  Hon. Roger F. Wicker, Co-Chairman, 
Commission on Security and Cooperation in Europe; Hon. Benjamin 
L. Cardin, Ranking Member, Commission on Security and 
Cooperation in Europe; Hon. Alan Grayson, Commissioner, 
Commission on Security and Cooperation in Europe; and Hon. 
Joseph R. Pitts, Commissioner, Commission on Security and 
Cooperation in Europe.
    Witnesses present: Chris Engels, Deputy Director for 
Investigations and Operations, the Commission for International 
Justice and Accountability; David Scheffer, former U.S. 
Ambassador-at-Large for War Crimes Issues; Stephen M. Rasche, 
Esq., Legal Counsel and Director of IDP Resettlement Programs, 
Chaldean Catholic Archdiocese of Erbil, Kurdistan Region, Iraq; 
William Canny, Executive Director, Migration and Refugee 
Services, United States Conference of Catholic Bishops; and 
Carl A. Anderson, Supreme Knight, Knights of Columbus.

HON. CHRISTOPHER H. SMITH, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Smith. The Commission will come to order, and good 
morning to everybody. Thank you for being here, especially to 
our very, very distinguished witnesses.
    Seven months ago, the Independent International Commission 
of Inquiry on the Syrian Arab Republic reported that ``the 
Syrian Government has committed crimes against humanity of 
extermination, murder, rape or other forms of sexual violence, 
torture, imprisonment, enforced disappearance and other inhuman 
acts.'' More than half a year ago, Secretary of State John 
Kerry declared that ISIS ``is responsible for genocide against 
groups in areas under its control, including Yazidis, 
Christians and Shia Muslims.'' They were acknowledging, in my 
opinion, the facts on the ground and affirming what I and so 
many of you in this room have been saying for many years.
    The atrocities in Iraq and Syria have been so horrible for 
so long and with so little action from the administration that 
it has been difficult to hope. Nevertheless, when the Secretary 
declared genocide, we dared to hope that finally the 
administration would hear the voices of the victims and act. 
Instead, the administration has said the right words; 
unfortunately, it has not always done the right things.
    I have chaired seven hearings focusing on genocide and 
other atrocities committed in Iraq and Syria. In March, the 
House passed almost unanimously the resolution that I authored, 
H. Con. Res. 121, which is in the Senate now, advocating for 
the formation of an ad hoc tribunal for perpetrators of the 
Syrian conflict. This has gone nowhere. The administration has 
seemed uninterested. I have brought this up directly with 
Secretary Kerry and people right down the chain of command. 
They always say they're looking at it, but so far nothing has 
happened.
    We had David Crane and other very distinguished people--he 
was the chief prosecutor at the Sierra Leone war crimes 
tribunal--testify, and make very powerful and persuasive 
arguments that the ad hoc tribunal was the best and most 
efficacious way to go. The ICC [International Criminal Court], 
while it might work, probably was not suited to this activity; 
it has only had two convictions in about 14 years, and every 
one of those has been in sub-Saharan Africa. They might still 
be able to do it. But an ad hoc tribunal will have the 
flexibility and would give the ownership. But so far that has 
not happened.
    This May I chaired another hearing, and this time it was 
entitled ``After the ISIS Genocide Declaration: What Next?'' Is 
it one and done? Is it a declaration that has real follow-up? 
Half a year later, we have the answer: not much.
    When given the opportunity to speak about genocide during 
his address to the entire U.N. General Assembly, President 
Obama this week said nothing. How can he be silent about a 
modern genocide that has been happening right now?
    Administration officials have stated that it is in the 
interests of the United States to enable Christians, Yazidis, 
and other religious and ethnic communities to remain in their 
ancient homelands of Iraq and Syria. Yet the administration has 
so far refused to identify the humanitarian needs of these 
communities and provide them with assistance so that they are 
able to survive in their home country. Displaced genocide 
survivors cannot pay for food, medicine or shelter with words 
from Washington. It is inexcusable that we have not had the 
kind of help for these individuals that they absolutely 
require.
    Shockingly, Steve Rasche, legal counsel and director of IDP 
Resettlement Programs for the Chaldean Catholic Archdiocese of 
Erbil in Iraq, will testify today that ``Throughout this entire 
period of crisis, since August of 2014, other than initial 
supplies and tents and tarps, the Christian community in Iraq 
has received nothing in aid from any U.S. aid agencies or from 
the United Nations.''
    Carl Anderson, Supreme Knight of the Knights of Columbus, 
provided a template for our legislation in his testimony at the 
``What Next?'' hearing, where he laid out a very clear path 
forward. He will also testify: ``We know that many Christian 
and the Yazidi victims of genocide do not receive public aid.''
    And the private aid, at about $26 million from multiple 
sources, including the Knights of Columbus, Caritas and others, 
is running out, if it has not run out already.
    When he made his genocide declaration, Secretary Kerry said 
that ``the United States will strongly support efforts to 
collect, document, preserve, and analyze the evidence of 
atrocities, and we will do all we can to see that the 
perpetrators are held accountable.'' Yet the administration has 
primarily treated the genocide, crimes against humanity, and 
war crimes in Iraq and Syria as human rights violations that 
need to be documented.
    These crimes are indeed human rights violations. And 
documentation, like the videos of the Assad regime bombing 
hospitals and schools, helps raise awareness in real time. Yet, 
first and foremost, they are crimes committed by perpetrators 
who need to be investigated and prosecuted. This requires 
collecting, preserving and preparing evidence that is usable in 
criminal trials.
    And I remember, because I was chair of the Helsinki 
Commission at the time, and worked on the Yugoslav war crimes 
tribunal, that while there was documentation, until that 
tribunal was established there was no enforcement. And a lot of 
lessons can be learned from that tribunal in terms of speed, 
which we did not have, and also effective prosecutions.
    Private groups like one we will hear from today are doing 
this work, literally risking their lives, without financial 
support from the United States. Chris Engels, from the 
Commission for International Justice and Accountability, will 
testify that ``CIJA's 130 personnel collect evidence, ensure 
its safe storage, and undertake legal analysis with a view to 
preparing trial-ready case files for present-day and future 
criminal prosecutions in domestic and international 
jurisdictions'' with funding from governments other than the 
United States. There is no justification for leaving other 
countries to ensure this work, so I hope we will get on board 
and be more supportive of that.
    When the executive branch fails to act, then the Congress 
must require it to act. That is why I recently authored and 
introduced the bipartisan Iraq and Syria Genocide Relief and 
Accountability Act of 2016, H.R. 5961, with Representative Anna 
Eshoo as our lead cosponsor. She has been a tireless champion 
for Christians and other religious communities brutalized by 
ISIS and has consistently pushed the administration to act. So 
I'm very grateful for her efforts. Our partnership is evidence 
that this is not about partisanship. It is about partnership.
    I would also point out that with my good friend and 
colleague Senator Cardin, we have worked, along with Senator 
Wicker, the co-chair, on religious freedom issues for decades. 
So, again, this is about bipartisanship and an effort to really 
make a difference on the ground, and not just talk about it.
    Very quickly, on accountability, our new bill would require 
the Secretary of State and the administrator of the U.S. Agency 
for International Development to support entities that are 
conducting criminal investigations into perpetrators and 
building investigative and judicial capacities in Iraq. It 
directs the Secretary of State to work with our allies to 
ensure that identifying information about perpetrators is 
included in security databases and security screening to enable 
apprehension and prosecution; requires the Attorney General to 
review U.S. criminal statutes for gaps in being able to 
prosecute American perpetrators or foreign perpetrators present 
in the U.S. And in part of our testimony today that we will 
hear about how we have people who have committed crimes against 
humanity walking the streets of the United States because we 
don't have the sufficient capability in our legal code to 
prosecute them, including people from Bosnia and elsewhere, 
Liberia, and many other places, like Haiti. The testimony is 
overwhelming.
    On assistance for genocide survivors and other Iraqi and 
Syrian religious and ethnic groups who have been persecuted, 
the bill also requires the Secretary of State to identify 
threats of persecution and other warning signs of genocide, 
crimes against humanity or war crimes; which groups of genocide 
survivors or other persecuted religious or ethnic communities 
are at risk of forced migration, and the reasons for those 
risks; U.S. assistance that has actually reached and is planned 
to reach these communities--the $64,000 question: why isn't our 
money flowing to these people who are suffering so immensely?--
and entities, including faith-based ones, that are effectively 
providing assistance on the ground to these communities; U.S. 
funding for such entities, if it is funding them and 
justification if the administration is not. It also requires 
the Secretary and USAID administrator to fund such entities.
    Finally, H.R. 5961 requires the administration to designate 
members of the three genocide-surviving groups, as well as 
members of other persecuted religious and ethnic groups, that 
are of particular humanitarian concern to the United States. 
This would create a Priority Two, often known as P-2, category. 
Individuals who meet the criteria would be able to access the 
overseas interview process for the U.S. Refugee Admissions 
Program without needing a referral from the U.N., an NGO or the 
U.S. Government.
    Under U.S. law, the Administration can make a P-2 
designation anytime--they could do it today--without needing 
additional authorization from Congress. The U.S. has a long 
history of P-2 designations--some created and required by 
Congress, like Jews from the former Soviet Union; and some 
created by the administration, like ethnic minorities from 
Burma and in Malaysia.
    The bill is clear: they would have to clear the same 
security screenings as other Iraqi and Syrian refugees before 
they can be admitted to the U.S. One can vote for the SAFE Act, 
as I did, but also support the P-2 provision, as I am doing 
now. This P-2 designation provides an extra avenue for 
displaced genocide survivors to get into the U.S. Refugee 
Admissions Application Program.
    I ask my fellow commissioners if they would look at this 
bill carefully to see if they can support it. Again, when we 
look at the numbers of how many Syrian Christians are actually 
being admitted through the admissions process, it is far less 
than one-half of 1 percent, and that's unconscionable.
    I'd like to yield to Ranking Member Ben Cardin. Senator 
Cardin.

HON. BENJAMIN L. CARDIN, RANKING MEMBER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Cardin. Well, thank you, Chairman Smith. I very much 
appreciate you calling this hearing. To me, this is one of the 
most important areas for the Helsinki Commission to be engaged 
in, dealing with atrocities in Iraq and Syria, relief for 
survivors, and accountability for perpetrators.
    It's also good to be here with my friend and the Senate Co-
Chair of the Helsinki Commission, Senator Wicker, who's been 
one of the champions in the United States Senate on putting 
spotlights on atrocities and human rights violations wherever 
it may be, anywhere in the world, taking on powerful interests. 
It's always good to see the leadership that comes out of the 
Helsinki Commission in working on our other committees, and 
whether it's the Appropriations Committee or whether it's the 
Foreign Affairs or Foreign Relations Committee, to carry out 
these issues.
    My staff from the Senate Foreign Relations Committee is 
here. I mention that because I'm going to have to leave 
shortly, but I wanted everyone to know how critically important 
this hearing is. And, Mr. Chairman, I'm going to ask that my 
full statement be made a part of the record so I can avoid a 
senatorial-length opening statement and just make some brief 
comments.
    Atrocities really do represent the consequences, the 
extreme consequences, of the failures of good governance. We 
see that when you have corrupt regimes and weak democratic 
institutions, it leads to the failure of government, which 
leads to the vacuums that create the climate in which 
atrocities can take place, including genocide, and that we 
ignore these issues or don't place a high enough priority on 
these issues at our own risk.
    So you're going to hear, at least from this senator, that 
we need to focus our foreign policy on dealing with corruption, 
on dealing with good governance, on dealing with developing 
democratic institutions. We need to do that through how we use 
our foreign assistance budget, and it has to be more focused 
towards these priorities. We need to do this in our diplomacy, 
putting a higher priority on these issues. We need to do this 
through our economic relations, including our trade policies. 
All of the above. And as Chairman Smith has pointed out, we 
also need to do this through legislation.
    Clearly Syria represents one of the great failures of our 
time. The Assad regime has clearly put the climate for 
atrocities that are being committed, has perpetrated 
atrocities, and as the Chairman pointed out, this amounts to 
genocide. Two thousand barrel bombs have been dropped--I think 
over 2,000 now--and then by accounts, there are over 400,000 
nonmilitary deaths in Syria.
    You put on top of that the tragedy of ISIS, which is also 
operating in Syria, and the atrocities that they are 
committing--clearly aimed and targeted both at religious and 
ethnic minorities. That's genocide. That's what we're trying to 
deal with.
    So let me just lay out four bills that I would just urge 
the members of the Commission to pay attention to. I think the 
Congress can play a significant role in helping provide the 
tools in our country to deal with atrocity prevention and to 
deal with accountability.
    First, we need to deal with the underlying problem of 
corruption. Chairman Smith and Chairman Wicker have both been 
very actively engaged with other members, and I'm proud of the 
role that I've played, in dealing with human trafficking, 
modern day slavery. And we decided we had to put a real 
spotlight on it. But more than that, we had to develop the 
protocols that we expect countries to follow in order to have 
acceptable conduct. So we have tier ratings. And there are 
consequences to not having satisfactory progress on dealing 
with human trafficking. It affects our foreign assistance, it 
affects our trade policies, it affects U.S. diplomacy.
    I think we need a similar effort in regards to corruption. 
Corruption is a cancer in a country. Recently, I was with the 
National Security Council members as we talked about the impact 
that global corruption has on the national security of our 
country. It is the first sign, it is the climate that produces 
the failures that lead to atrocities.
    Secondly, as the Chairman has mentioned, I think we need to 
pass and authorize the Genocide and Atrocity Prevention Act. 
I've introduced similar legislation in the Senate, and it's 
legislation that we need to get passed. It builds on our 
current programs, but engages the civil societies working with 
us so that we can see the first signs of trouble and act before 
atrocities occur, so that we have warning signs and actions to 
prevent atrocity.
    Third, we have to have accountability. Accountability is a 
critical component towards preventing future genocides. If 
world leaders believe that they can commit these atrocities 
without accountability, the next circumstance will lead to 
atrocities. We've seen this over and over again.
    This week, Mr. Chairman, we had a hearing in the Senate 
Foreign Relations Committee on South Sudan. Just five years 
ago, we celebrated the creation of the newest country in the 
world. A little over a year ago, we celebrated a peace 
agreement. We saw signs that peace agreement was not working. 
Today it's in shambles. And the leaders of both factions are 
openly using civilian targets as part of their military 
strategy, killing and raping the civilian population. That's 
occurring as we are having this hearing, in South Sudan. We can 
mention so many other countries.
    We need to have accountability. There's a bill that, I 
think, is pretty close to the finish line, the Global Magnitsky 
bill. This Commission was the spark that started the Magnitsky 
legislation. We did it for Russia, now we're going to do it 
globally, to say the perpetrators of these gross violations are 
not going to get the benefits of our country, and other 
countries have followed suit. We need to get that to the finish 
line, and we're very close to getting that.
    We need to pass a Syrian War Crimes Accountability Act, 
just as the chairman said. It's one thing to have 
documentation. It's another thing to have the mechanism in 
place that can actually bring about justice. That bill needs to 
make its way, to be finalized so that the United States takes 
leadership in establishing the way in which the war criminals 
in the Syrian atrocities can be held accountable. I think if we 
were to deal with these legislations, we could really make 
significant progress.
    The bottom line is, as you've mentioned in regards to 
documentation, documentation is important. What's happening 
with the Assad regime, what's happening with ISIS, you need to 
document because you need to have credible and impartial fact 
finding. That's part of our justice system for international 
credibility.
    But you have to have transitional justice if you're going 
to ever have peace in a country. You have to have transitional 
justice. And transitional justice is the best defense against 
the danger of collective blame, because only credible 
accountability, that which the victims have confidence in, is 
bringing closure to an issue. It is the only way that we can 
prevent the continuing recycling of atrocities that we see too 
frequently in our own lifetime. This hearing, I hope, will add 
to our commitment to do everything we can to prevent 
atrocities; and when we see these types of activities, those 
who perpetrate it know they're going to be held accountable.
    Mr. Smith. Senator Cardin, thank you very much for that 
very eloquent statement. And I'd like to now yield to our co-
chair, Senator Wicker.

 HON. ROGER F. WICKER, CO-CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Wicker. Thank you. And, Mr. Chairman and witnesses, I 
will just make a few opening sentences and then we'll try to 
get to testimony. This is a good hearing to have, and so thank 
you, Mr. Chairman. Today we hope to shine the light on 
atrocities in Iraq and Syria.
    The oppression of Christians and other religious 
communities in Syria and Iraq has led to an unspeakable 
humanitarian crisis. Senator Cardin has described this in 
depth. Hundreds of thousands have had to flee their homes to 
seek sanctuary from the Islamic State, whose savage treatment 
of these people is well documented. The United States has 
historically protected minorities facing similar circumstances, 
and we should do so again now. I commend my colleague Senator 
Cardin for listing several specific acts that we could take.
    I also want to say I'm delighted to see my fellow 
Mississippian Chris Engels on the panel today. He will testify 
this morning about the heroic and dangerous work he and his 
colleagues at the Commission for International Justice and 
Accountability are doing to investigate perpetrators of 
atrocities in Iraq and Syria. I hope the U.S. Government will 
support these vital criminal investigations.
    I look forward to hearing from our witnesses, like Senator 
Cardin. There are many demands on our time, and perhaps members 
of the House and Senate will have to be in and out.
    Mr. Chairman, thank you again for calling this hearing and 
for your proposals to help address the ongoing human tragedy in 
Iraq and Syria. Thank you, sir, and thank you all.
    Mr. Smith. Senator Wicker, thank you again so much for your 
leadership and your great statement this morning and commitment 
to this issue. I'd like to now yield to Mr. Grayson, a fellow 
commissioner.

  HON. ALAN GRAYSON, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Grayson. Thanks.
    Twenty-five miles away from here in space and 150 years 
away from here in time the Battle of Bull Run took place, the 
first and second battles. Only 25 miles away meant that people 
from Washington, D.C.--civilians, if you will--noncombatants 
could go and watch. And in fact, they did. That represented a 
civilized and simpler time as compared to what we have today. 
Now I don't want to make it sound that all the course of 
history has been downhill. In fact, at earlier times the 
Mongols left piles of skulls outside of the cities that they 
conquered--all civilians.
    But we've seen a struggle all through human history over 
the question of how are civilians treated during wartime. Are 
they treated as spectators, as they were in the Battles of Bull 
Run, or are they treated as victims or pawns, as they were by 
the Mongol hordes sweeping across Western Asia and Eastern 
Europe? The answer still is in flux. We haven't answered that 
question yet.
    And for those who believe that everything is like 
everything else, we have a counterexample called ISIS. ISIS 
represents a fundamentally different view of how to conduct 
warfare than virtually every other organized military effort on 
Planet Earth. I think you could find a few other analogies--
perhaps Boko Haram, maybe. But the fact is that torture as 
policy, killing as policy, genocide as policy is something that 
we thought maybe we had swept away from human history and left 
behind us, and now it turns out that that is not true.
    So the purpose of the hearing in part today is to 
underscore the fact that something very important is in play 
today all around the world still: the question of whether we 
conduct our warfare in what amounts to an humane respect for 
innocent people, or not. And that really gets to the crux of 
the matter. Why do we call terrorism ``terrorism''? In part, 
because it strikes terror into the hearts of innocent people. 
It makes innocent people feel fearful. What we've done for the 
past several centuries is make an effort to draw that line, to 
keep that line, respect that line, and even fortify that line 
between the combatants and the innocent.
    We saw the line crossed and almost destroyed on 9/11. We 
see the line crossed and destroyed every day in places like 
Mosul. And it's up to us, the living, the people who represent 
the better side of humanity, the spirits and good natures of 
people who want everyone to be able to live in peace--it's up 
to us to enforce that distinction, and that is, in my mind, the 
central purpose of the hearing today: to make sure that people 
who are in peace can live in peace and to make sure that the 
lives of noncombatants are respected.
    Thank you very much.
    Mr. Smith. Mr. Grayson, thank you very much. Commissioner 
Grayson.
    I'd like to yield to Joe Pitts. Joe Pitts, besides being 
chairman of the Subcommittee on Health and serving on the 
Energy and Commerce Committee, is the co-chair of the Lantos 
Human Rights Commission. Joe Pitts.

HON. JOSEPH R. PITTS, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Pitts. Thank you, Mr. Chairman. Thank you for holding 
this important timely hearing on fostering relief and 
accountability amidst the genocide of religious minorities that 
we're witnessing today. As we all know, the world has been 
rattled by so-called Islamic State's attempts to eradicate 
Christians, Yazidis and other religious/ethnic minorities from 
their territory. In fact, I held my first hearing as co-chair 
of the Lantos Commission on the ensuing human rights abuses of 
the Islamic State in an effort to bring greater attention to 
the depth, breadth and brutality of the terrorist group's 
abuses. This hearing builds on the bipartisan efforts of many 
initiatives, including the passage of resolutions declaring the 
Islamic State as a perpetrator of genocide, calling for a Syria 
War Crimes Tribunal.
    Mr. Chair, Congress has rightly characterized these heinous 
acts as war crimes, crimes against humanity. The administration 
followed suit. The European Union has also designated these 
abuses as constituting genocide. One international organization 
that has yet to make this designation is the United Nations. 
Mr. Chairman, I call on the United Nations to designate these 
abuses against religious minorities for what they are--
genocide--and further call on our administration to use its 
voice and vote in that body to accomplish that end.
    I'd like to take a moment to thank the countless NGOs, 
human rights monitors, journalists, others outside of 
government that give us insight into this dangerous situation. 
The U.S. Government cannot be everywhere, and that is why it is 
so important that we collaborate with outside groups and our 
allies on how to stop these atrocities. That is why this 
hearing is so important. Our government needs a concentrated 
strategy on conducting criminal investigations, developing 
investigative judicial capacities, evidence collection, and 
prosecution. And we must augment our coordination with these 
outside groups to help achieve that.
    With that, I'd like to thank our witnesses for their work 
in this field and look forward to their recommendations on how 
we can best move forward to confront the aftermath of the 
abuses that have so vexed the lands of Iraq and Syria. And with 
that, Mr. Chairman, I yield back.
    Mr. Smith. Thank you very much, Mr. Pitts.
    I'd like to now introduce our distinguished panel, and they 
are indeed distinguished, beginning first with Chris Engels, 
who is a U.S. lawyer with over 10 years of international 
experience, focusing on international criminal law and criminal 
justice reform. He's currently deputy director for the 
investigations and operations for the Commission for 
International Justice and Accountability, or CIJA, a role in 
which he oversees the organization's criminal investigations in 
Syria and Iraq. His past posts include head of section for the 
Justice Sector Support Project Afghanistan, director of the 
criminal defense section of the Court of Bosnia-Herzegovina, 
and acting deputy head of the defense section at the Khmer 
Rouge Tribunal. He was recently head of rule of law for the 
OSCE Mission in Bosnia, and worked in the office of the legal 
advisor of the U.S. Mission in Kosovo.
    We'll then hear from Ambassador David Scheffer, who was the 
first U.S. Ambassador-at-Large for War Crimes Issues, serving 
from 1997 to 2001, during which time he chaired the Atrocities 
Prevention Interagency Working Group of the U.S. Government. He 
is currently the U.N. Secretary General's special expert on 
U.N. assistance to the Khmer Rouge trials. In addition, 
Ambassador Scheffer is the Director of the Center for 
International Human Rights at Northwestern University, and 
chairs the Working Group on Crimes Against Humanity of the 
American Bar Association.
    We will then hear from Mr. Steve Rasche, who is currently 
serving as vice chancellor for the Catholic University in 
Erbil, Iraq, which held its inaugural opening in December of 
2015. Mr. Rasche serves as legal counsel and director of the 
IDP resettlement for the Chaldean Catholic Archdiocese of 
Erbil, reporting directly to Archbishop Bashar Warda.
    In these roles, he divides his time between the United 
States and Erbil, in the Kurdistan region of Iraq, where he 
holds resident status. He has over 30 years of experience in 
international business, in development projects, including 
extensive work in Latin America, Asia and the Middle East.
    We will then hear from Mr. Bill Canny, who is the executive 
director of the Department of Migration and Refugee Services at 
the United States Conference of Catholic Bishops. MRS annually 
resettles more refugees in the United States than any other 
agency. They resettled 18,114 refugees in fiscal year 2015, 
including a little over 3,400 Iraqis and 268 Syrians.
    Mr. Canny joined MRS in May of 2015. He has served as 
secretary general of the International Catholic Migration 
Commission and in various leadership roles within Catholic 
Relief Services, including as director of emergency operations 
for the period including the aftermath of the Haiti earthquake. 
Most recently, he was chief operating officer of the Papal 
Foundation, which supports the personal charity initiatives of 
Pope Francis.
    Then we'll hear from Mr. Carl Anderson, who is the supreme 
knight of the Knights of Columbus. They have achieved new 
charitable records, including raising more than $11 million for 
Christians and other persecuted minorities in the Middle East, 
while also helping to spearhead the effort to have the 
situation facing them declared a genocide. This included 
producing, in partnership with In Defense of Christians, a 
nearly 300-page report on the issue at the request of the U.S. 
Department of State. And having read that, it was heavily 
documented and very, very persuasive at that.
    A lawyer, a New York Times best-selling author, a current 
member of several Vatican committees, Carl Anderson served for 
nearly a decade on the U.S. Commission on Civil Rights. He 
worked before that as acting director of the White House Office 
of Public Liaison, and worked as a staffer many decades ago in 
the United States Senate.
    I would point out for the record that regarding H.R. 5961, 
we're very grateful to him for providing a template for this 
legislation. He laid out a number of goals for ``what next? '' 
And I just want to say how grateful the Commission and my staff 
and I are for that insight, because it helped us put together 
what I think is a path forward, which could be done 
administratively if there's a will, or, if Congress passes it 
and then hopefully it's faithfully implemented.
    I'd like to now go to Mr. Engels for your testimony.

     CHRIS ENGELS, DEPUTY DIRECTOR FOR INVESTIGATIONS AND 
   OPERATIONS, THE COMMISSION FOR INTERNATIONAL JUSTICE AND 
                         ACCOUNTABILITY

    Mr. Engels. Please let me begin by thanking Chairman Smith, 
Co-Chairman Wicker, and the distinguished commissioners of the 
U.S. Helsinki Commission, for their steadfast support to the 
establishment of the rule of law and to the promotion of human 
rights, but more specifically for their continued engagement to 
address the mass atrocities being committed as part of the 
ongoing conflicts in Syria and Iraq. I'm honored by the 
invitation to testify before this Commission on the efforts to 
combat these mass atrocities through individual criminal 
accountability.
    This Commission is already familiar with the devastating 
humanitarian situation in Syria and Iraq. Some members of the 
Commission personally heard the testimony from an Assad regime 
defector known as ``Caesar,'' who smuggled thousands of images 
from Syria. These images reveal the Assad regime's systematic 
torture and murder of its opponents in security centers 
throughout Syria. Survivors of ISIL's horrible sexual 
enslavement campaign have also testified before Congress.
    In addressing the Commission today, my role is not to 
further elaborate on these crimes, which are, unfortunately, 
all too well known to us here. Instead, I'm here to speak about 
establishing individual criminal accountability for the 
perpetrators of these terrible crimes and the current as-yet-
untapped opportunities for the U.S. Government to support 
organizations working to ensure those responsible are brought 
to justice.
    The Iraq and Syria Genocide Relief and Accountability Act 
of 2016, H.R. 5961, certainly recognizes the importance of 
justice in both these contexts. Evoking the sentiments of the 
Act, I will narrow my recommendations to four areas for 
potential future U.S. engagement and support to victims of both 
of these crises.
    First, it is important to support atrocity accountability 
efforts today, despite the present lack of international 
criminal jurisdictions over Syria or Iraq. With intervention by 
the International Criminal Court or by any other international 
tribunal for Syria and ISIL atrocity crimes still unlikely, 
many question the point of criminal accountability work today.
    Yet for the past 25 years, numerous examples demonstrate 
that even during conflicts where accountability is not 
addressed in the course of the war, discussions inevitably turn 
to justice once peace has been restored. It is without question 
that a present focus on criminal accountability, amassing 
evidence before it can be destroyed or otherwise made 
unavailable, will only serve to strengthen future peace-
building efforts in these countries. Moreover, there is no need 
to wait for an international court or a tribunal where criminal 
accountability options may be played out in the future. There 
are options available today.
    At CIJA, for example, we receive a dozen requests for 
assistance per month from war crimes, counterterrorism and 
immigration authorities. While victims may wait for justice in 
their homelands, efforts to gather and corroborate information 
on perpetrators found in Europe and North America today are a 
credible recourse to criminal accountability, demonstrating to 
Syrians, Iraqis and the world that perpetrators will be 
prosecuted for their crimes.
    Second, international support should be directed towards 
the creation of competent local courts to try atrocity crimes 
based on 
already-collected evidence. An even more immediate road to 
justice in Iraq is in front of us. Specifically, a number of 
ISIL officials can be put on trial in specially equipped courts 
in Erbil, where an Iraqi chamber would hear complex cases 
against ISIL members, applying Iraqi penal code.
    With the assistance of international experts and 
professionals, such a chamber would be mandated to hear those 
cases in line with the highest international standards of fair 
trials and due process. It is our experience on the ground, 
interviewing a wide range of affected groups, that the majority 
of these victims want criminal justice, true justice, whether 
it is through international or domestic courts.
    Third, promoting the local contribution to criminal 
investigations through capacity building now will ultimately 
ensure a place for the rule of law in Syria and Iraq over the 
long term. Training and mentoring Syrian and Iraqi 
investigators, lawyers and analysts to conduct atrocity crime 
work will have a significant impact on the quality of justice 
tomorrow. In other words, investigative capacity development is 
critical not only to lay the foundations for a robust domestic 
engagement and future domestic or international courts, but 
also as an investment in the long-term enforcement of the rule 
of law in Syria and Iraq.
    And fourth, criminal accountability efforts should be 
linked to counter violent extremist initiatives. Holding 
militant extremists criminally responsible for atrocity crimes 
is under-utilized as a countering violent extremism tool today. 
Evidence attributing specific crimes to members of militant 
groups such as ISIL can serve to weaken the group's recruitment 
narrative, discrediting members not only for providing support 
to a group, but also as the murderers, torturers, rapists, 
slavers and war criminals that they are.
    If the Attorney General's review of the existing statutes, 
as called for in this legislation, results in the enhancements 
of statutory provisions related to atrocity crimes, this will 
strengthen the ability to engage in such prosecutions here at 
home in the United States.
    Let me conclude with the words of Dr. Martin Luther King, 
Jr., inscribed in marble just down the road: ``True peace is 
not merely the absence of tension; it is the presence of 
justice.'' This act embodies Dr. King's words and represents 
some of the United States' highest values: adherence to the 
rule of law, the protection of human rights, and the delivery 
of humanitarian assistance to those much in need.
    These values underpin a just and peaceful society and are 
especially pertinent to those trying to transition out of the 
throes of chaos and tragedy. It is for these reasons that CIJA 
supports the prompt passage of this legislation.
    Thank you very much, Commissioners, for your hard work.
    Mr. Smith. Thank you very much, Mr. Engels. And without 
objection, your full statement, and that of all of our 
witnesses, and anything you would like to add in addition to 
that to the record, will be made a part of the record. Thank 
you so much.
    Ambassador Scheffer.

DAVID SCHEFFER, FORMER U.S. AMBASSADOR-AT-LARGE FOR WAR CRIMES 
                             ISSUES

    Amb. Scheffer. Mr. Chairman and distinguished members of 
the Helsinki Commission, thank you for this opportunity to 
appear before you today. I'll be speaking strictly in my 
personal capacity.
    This hearing is really about two unacceptable realities: 
first, the massive refugee migration out of Iraq and Syria, 
arising in the latter case from years of atrocity crimes 
killing more than an estimated 400,000 Syrian citizens and 
devastating the urban landscape of that country; and second, 
the inadequacy of U.S. federal law to hold the perpetrators of 
such atrocity crimes--namely genocide, crimes against humanity 
and war crimes--accountable if they reach American territory.
    My focus today is on the latter reality, for it is simply 
implausible that the United States remains a safe haven for the 
war criminals of the Syrian and Iraqi conflicts. Indeed, it is 
unacceptable that perpetrators of crimes against humanity 
committed anywhere in the world--such as massive murders, 
extermination, enslavement, forcible transfers of populations, 
torture, sexual violence, ethnic or religious cleansing and 
forced disappearance of persons--that such war criminals could 
find refuge in the United States because of the void that 
exists in Title 18 of the U.S. Code.
    Fortunately, the Iraq and Syria Genocide Relief and 
Accountability Act of 2016 would, if adopted, begin the process 
of rectifying this deficiency in federal law. The Attorney 
General, who for years was special counsel to the prosecutor of 
the International Criminal Tribunal for Rwanda, where atrocity 
crimes were prosecuted, would be directed to review existing 
criminal statutes to determine the extent of federal 
jurisdiction over war criminals and assess how the absence of 
criminal statutes impede the prosecution of such atrocity 
crimes.
    She would confirm that there is a glaring void in Title 18 
when it comes to crimes against humanity. In contrast, most of 
our allies and many other governments, during the last 20 
years, have incorporated crimes against humanity into their 
national criminal codes. So we are lagging far behind. 
Following the Attorney General's review, I would hope that 
further legislation would fill the void.
    It remains true that, under current law, foreign 
perpetrators of crimes against humanity might be subject, at 
most, to deportation for immigration fraud in the United 
States. Even then, such deportations might not be to a foreign 
court for purposes of prosecution, but rather to live, prosper 
and pose a continuing risk elsewhere, and perhaps to the 
national security of the United States and its interests 
abroad.
    I have attached to my written testimony lists of cases that 
focus on immigration fraud, typically with the penalty of 
deportation or denaturalization even though the immigrant is 
suspected of atrocity crimes or other serious human rights 
abuses.
    While their total number is unknown, experience dictates 
that there are individuals who committed atrocity crimes 
overseas and have yet to be discovered currently residing in 
the United States. However, the Human Rights Violations and War 
Crimes Unit of ICE is currently pursuing 1,900 leads and 
removal cases against suspected human rights violators, 
including more than 125 active investigations.
    One nongovernmental organization, the Center for Justice 
and Accountability, tries to locate them, and sometimes does, 
assisting the Justice Department and ICE to pursue these 
individuals. If they are tracked down, the result should be 
something more than the possibility of mere deportation. I 
would argue that they pose a threat to our national security 
and we should either extradite them to foreign courts that will 
effectively prosecute them or do the job ourselves.
    In any event, the United States should deter their arrival 
on our shores with tough criminal penalties for those alien 
perpetrators of crimes against humanity who plot to enter this 
country in order to reside or otherwise take advantage of 
immigration privileges without fear of prosecution for their 
egregious crimes. H.R. 5961 would demonstrate that the United 
States stands with the victims and against the perpetrators of 
crimes against humanity and other atrocity crimes.
    Thank you, Mr. Chairman.
    Mr. Smith. Mr. Ambassador, thank you so very much for your 
testimony and, again, decades of leadership, and for the 
insight you've provided to our Commission.
    I'd like to now go to Mr. Rasche.

  STEPHEN M. RASCHE, ESQ., LEGAL COUNSEL AND DIRECTOR OF IDP 
RESETTLEMENT PROGRAMS, CHALDEAN CATHOLIC ARCHDIOCESE OF ERBIL, 
                     KURDISTAN REGION, IRAQ

    Mr. Rasche. Thank you, Mr. Chairman and distinguished 
members of the Commission, for allowing me to speak to you 
today on behalf of the persecuted Christians of Northern Iraq, 
who as of today number barely 200,000, down from over 1.5 
million just 13 years ago.
    Again, my name is Stephen Rasche and I serve on the staff 
of the Chaldean Catholic Archdiocese of Erbil in the Kurdistan 
region of Northern Iraq. And my intention here this morning is 
to give you a brief overview of the work we're doing and 
address our future needs and concerns.
    At present, we at the archdiocese are serving the various 
needs of approximately 10,500 displaced families--IDPs in our 
language. The majority of these were originally Christian 
residents of Mosul and the Nineveh Plain. Within this overall 
number, nearly 6,000 families are presently receiving housing 
rental assistance at a total cost of approximately $650,000 per 
month. Our food package program serves over 10,000 families at 
a cost of approximately $720,000 per month, and our medical 
clinics serve over 6,000 families per month, at a total cost of 
about $80,000 per month, inclusive of all medicines.
    While our responsibility at the archdiocese lies primarily 
with service to the Christian IDPs, we have regularly extended 
care to non-Christians as well. We do that as part of our 
mission. Our schools and medical clinics serve the Yazidis and 
Muslim IDPs, and our food and housing rental programs include 
many Yazidi families.
    All of this work has been done using, exclusively, private 
aid, which today totals approximately $26 million since the 
outset of the recent crisis beginning in August of 2014. Our 
largest donors include the European-based Aid to the Church in 
Need, the Knights of Columbus, the U.S.-based Nazarene Fund, 
the Italian Episcopal Conference, the Chaldean Churches of the 
USA and Caritas of Italy. There are many other private donors, 
all of which are included in the detailed reports which we've 
previously submitted to the office of the chairman.
    Members of this Commission, it is no exaggeration to say 
that without these private donors, the situation for Christians 
in Northern Iraq would have already collapsed and the vast 
majority of these families would, without question, have 
already joined the refugee diaspora now destabilizing the 
Middle East and Europe.
    I say this because, throughout this entire period of 
crisis, other than initial supplies of tents and tarps, the 
Christian community in Iraq has received no funding from any 
U.S. aid agencies or the U.N. The reason for this, we are told 
repeatedly, lies in the Individual Needs Policy rigidly--in the 
present case, we would argue, blindly--adhered to by the U.S. 
Government and the U.N., as well as other U.S.-backed aid 
agencies.
    Specifically, when we've approached any of these agencies 
regarding the provision of aid funding to the Christians, we've 
been told that we've done too well in our private efforts, and 
that the standards we've provided for our people exceed the 
minimum Individual Needs standards currently within the 
capabilities of those agencies. Counterarguments from us that 
the needs of our perishing population require a different 
standard of evaluation are met with vague sympathy but little 
else.
    With all this as background--and as the time of forced 
displacement is now over two years--our private donors are 
running out of the ability to sustain our current level of 
care. And this brings us to two critical points to share with 
this Commission this morning.
    First, while the standard of care being received by 
Christians may, in fact, marginally exceed that being provided 
elsewhere by the U.N. and similar organizations, there are no 
other groups in Iraq that are facing the existential threat now 
being faced by the Christians. This enhanced level of care is 
critical if we are to keep the Christian community viable in 
Iraq.
    Secondly, from a moral standpoint, the uniquely endangered 
status of the Christian population, in our view, requires that 
they be viewed not as individuals, using the standard 
Individual Needs assessment, but rather as a group threatened 
with extinction as a people, the victims of genocide and 
historical violence which seeks to remove them permanently from 
their ancestral homes.
    Given this, as we near the beginning of the expected 
liberation of Mosul and the Nineveh Plain, we ask that you, in 
your individual legislative capacities, consider supporting the 
allocation of $9 million in direct aid, specifically designated 
to support the existing humanitarian aid programs of the 
remaining Christians of Northern Iraq. This amount would allow 
for a continuation of the existing housing, medical and food 
programs for an additional six months, by which time expected 
events in the region would allow for informed reassessment.
    While understanding the legal constraints governing the 
issuing of U.S.-backed aid, we would request that the ultimate 
use and implementation of any such aid be managed through our 
existing system, which is already thoroughly integrated into 
the Christian community. This could be readily done under 
proper oversight from an approved distributor of U.S.-
government aid, and we stand by ready to work in good faith 
with any such partner. Our existing aid donors regularly audit 
our use of funds and we are thoroughly familiar and capable in 
this regard.
    Members of the Commission, thank you very much for your 
time and the good work you do.
    Mr. Smith. Oh, thank you for your great work, on the ground 
especially.
    I would like to now to turn to Bill Canny.

   WILLIAM CANNY, EXECUTIVE DIRECTOR, MIGRATION AND REFUGEE 
     SERVICES, UNITED STATES CONFERENCE OF CATHOLIC BISHOPS

    Mr. Canny. Thank you, Chairman Smith and all the Commission 
members. I'm grateful, on behalf of the United States 
Conference of Catholic Bishops, to testify before this 
Commission.
    The bishops welcome the introduction of H.R. 5961, the 
bipartisan Iraq and Syria Genocide Relief and Accountability 
Act, sponsored by Chairman Smith and now with 11 co-sponsors. 
We appreciate this opportunity to share our thoughts and ideas 
about the bill, as well as share other recommendations to 
protect those fleeing atrocities in Syria and Iraq.
    The work of the U.S. Catholic Bishops' Committee on 
Migration is carried out by Migration Refugees Services, which 
is in partnership with Catholic Charities across the country 
and is the largest U.S. refugee resettlement agency, resettling 
about a quarter of the refugees that arrive each year. We also 
serve unaccompanied children, victims of human trafficking and 
other at-risk migrants.
    The U.S. Catholic Church relates closely with the Catholic 
Church in countries around the world, where our worldwide 
Catholic Communion serves the needs of the most marginalized, 
regardless of nationality, ethnicity, race or religious 
affiliation, as evidenced by Steve's testimony.
    We share a deep concern for Syrian and Iraqi victims of 
atrocities, outlined by Secretary Kerry. The USCCB's Committee 
on Migration has made missions to the region and written two 
Assessment and Solidarity reports concerning the plight of 
refugees in the region.
    In a recent trip to the region, a delegation described 
arriving in Southern Turkey as some 130,000 Kurds, an ethnic 
minority in Syria, were forced over the course of a weekend, to 
seek refuge in Turkey as ISIS devastated their city of Kobani.
    As the trip continued, the delegation met a growing number 
of religious minorities, including Christians. The delegation 
met a Syrian Christian in his twenties who boldly shared his 
faith with the arriving ISIS fighters to his village. Surprised 
that they let him go, he went to the family home several hours 
later to find his parents and siblings slaughtered by ISIS. At 
Sunday Mass in Istanbul, we met with a church full of Iraqi 
Christian villagers who had fled from ISIS. They told us how 
one of the village leaders had stood up to ISIS, and that the 
next morning the villagers found the leader's severed head on 
his doorstep.
    Based on what we continue to see and hear from the region, 
we are urging the U.S. Government and the international 
community to take a comprehensive approach, including robust 
aid to private organizations and host governments to this 
crisis, hoping that it will be possible for a safe, humane, 
voluntary return for all, including Christians, at the end of 
the conflict. Meanwhile, for some refugees, because of their 
vulnerability, waiting for return is not viable. One of the 
options for these most vulnerable is to offer a U.S. 
resettlement, albeit to a relatively small number of them.
    We are pleased that the United States has resettled more 
than 10,000 Syrian refugees in the current fiscal year. 
However, we are gravely concerned by the small number of 
religious minorities who have been resettled in the United 
States during this period. For example, only .53 percent of 
Syrians resettled this year in the United States have been 
Christians, down from 1.7 percent last year.
    Last year's number was close to being in line with the 
percentage of Christians among all the Syrians registered as 
refugees, which was around 2 percent. However, it is unclear at 
the time of this writing precisely why the percentage of Syrian 
Christians who have been registered as refugees or resettled in 
the United States as refugees is so low. More needs to be done 
to assess why this is so and then to address it.
    We commend H.R. 5961 for recognizing the plight of 
Christians and other religious minorities and for taking steps 
to improve their access to the U.S. Refugee Admissions Program. 
We have some questions about whether the bill's provision 
amending Section 599D of the Foreign Operations Export 
Financing and Related Appropriations Act 1990 is the right 
approach.
    We respectfully suggest that creating a new P-2 
classification in the U.S. Refugee Admissions priority system 
for religious and ethnic minorities and victims of genocide 
could more effectively achieve the laudable goals of this 
legislation. We believe that a P-2 designation would increase 
the access that Christians and other religious minorities have 
to the U.S. Refugee Admissions Program, and we support the 
inclusion of this provision in H.R. 5961.
    While supporting this effort to increase access for 
religious and ethnic minorities to resettlement, we also 
encourage that all the most vulnerable refugees in Syria and 
Iraq continue to have access to resettlement as well. The U.S. 
Conference of Catholic Bishops joins Pope Francis in condemning 
the actions of those who would persecute others solely for 
reasons of their faith and ethnicity, and we stand ready to 
help resettle Christians and all those most in need of this 
solution.
    Thank you.
    Mr. Smith. Thank you very much, Mr. Canny, and thank you 
for that very constructive recommendation on how we can make 
this better.
    And I want all of you to know, any thoughts you have on 
improvements or anything that's in the bill that needs to be 
rectified, please come forward because we need it.
    I'd like to now yield to Mr. Anderson.

     CARL A. ANDERSON, SUPREME KNIGHT, KNIGHTS OF COLUMBUS

    Mr. Anderson. Thank you very much, Mr. Chairman and 
Commissioners, for this opportunity to testify. Congress and 
the Administration have our great appreciation for their 
declarations of genocide on behalf of victims who often feel 
that the world has forgotten them.
    Mr. Chairman, we commend you and your colleagues for your 
leadership in introducing H.R. 5961, the Iraq and Syria 
Genocide Relief and Accountability Act. Please be assured of 
the full support of the Knights of Columbus in your work to 
bring it to the president's desk. I would like to speak to you 
today about three matters.
    First, our government's humanitarian aid bureaucracy is 
often not making aid available to communities that need it 
most. Section 5 of the bill directs administration officials to 
prioritize those targeted for genocide for relief. It seems 
that it is more of a mindset than anything else and has 
resulted in the need for this section.
    We know that many Christian and Yazidi victims of genocide 
do not receive public aid. U.S. and U.N. officials have told us 
that the current policy prioritizes individual needs but does 
not consider the needs of vulnerable communities. Such a policy 
increases the likelihood that genocide will succeed.
    And here we have a fundamental inconsistency in the U.S. 
stance toward genocide. On the one hand, we have the unanimous 
policy of the elective branches of the United States Government 
stating that a genocide is occurring. On the other hand, we 
have an aid bureaucracy that is allowing the intended 
consequence of the genocide to continue, even though we can 
stop it.
    We need a different approach. The bureaucracy needs an 
immediate change of mindset. Legislation may be helpful in 
hastening this, but it does not have to be this way.
    As this bill proceeds to a vote, our legislative and 
executive representatives need to deliver to our diplomatic and 
aid entities a simple message: In the midst of this genocide, 
saving Christian and other communities that face extinction in 
Iraq and Syria is part of your mission. There is nothing 
unconstitutional, illegal, unethical or unprofessional about 
prioritizing their need to survival as communities. They are 
innocent victims of a genocide. If these victimized communities 
are not receiving aid, you are not fulfilling your mission.
    And such action is consistent with the best of American and 
U.S. State Department tradition. In fact, during and after 
World War I the United States Government assisted Christians in 
the region with direct aid as they suffered from what Pope 
Francis has called the first genocide of the 20th century.
    Chartered by Congress and recipient of more than $25 
million in government aid, the Near East Relief Organization 
constituted a collaboration of the State Department and 
American individuals and religious entities in the Middle East. 
It is widely credited with having been key in saving religious 
pluralism in the region during and following World War I. And I 
am proud to say that the Knights of Columbus was among the 
groups that supported this effort.
    There is no reason that such a prioritization assisted by 
direct government funding could not exist today. To be clear, 
we've had the assistance of many people who are working within 
this system to help and to change the status quo, but they are 
often limited by a bureaucracy that resists change. And we call 
upon the Secretary of State not to wait for Congress to pass 
H.R. 5961, but to take this action administratively today.
    What is lacking may be legislation, but it is also 
leadership. With this bill, Congress is providing leadership. 
And it is time for the aid community to respond. If they do 
not, the officials from the State Department, USAID, and their 
private partners need to continue to hear directly from our 
elected representatives that public aid needs to flow to these 
communities now.
    Second, on the subject of aid, I would like to reiterate 
that in addition to the funds provided in this bill, Congress 
should explore a standalone emergency appropriations bill to 
respond to this genocide, and the communities affected by it, 
more comprehensively. It seems that few situations could be as 
worthy of such a measure as an ongoing genocide.
    My third point is that the aid we provide must be an 
investment in a more peaceful future in the region. This cannot 
happen unless the religious apartheid there ends. Christians 
and other religious minorities are entitled to equal rights and 
to equal protection of the law as enumerated in the Universal 
Declaration of Human Rights.
    Our tax dollars to governments in the Middle East must 
not--must not--be used to rebuild a system that imposes second-
class citizenship upon religious minorities. U.S. aid should be 
contingent on the application of full and equal rights of 
citizenship to every citizen of Iraq and other countries in the 
region.
    This agenda demands from us a new approach to our human 
rights advocacy. When we speak of human rights, we are 
referring to the Universal Declaration of Human Rights. When 
governments in the region speak of human rights, they may be 
thinking of those rights as defined, or as confined by Sharia. 
We must not mislead ourselves or allow others to mislead us in 
this regard.
    Our own laws, including the International Religious Freedom 
Act of 1998, recognized these realities and require our 
government to act. Christians and others in the region have a 
natural and universal right to practice their faith freely and 
openly, and they must receive protection from civil authorities 
when they do so. If civil authorities in the region cannot 
supply this protection, in our opinion they are not suitable 
partners for our aid. Only with such policies will we be able 
to break the cycle of persecution and genocide which has 
afflicted these communities for far too long and which 
threatens international peace and security.
    Mr. Chairman, thank you very much for your leadership and 
that of the members of the Commission. I would just say in 
closing, on September 16th, the human rights advocate Amal 
Clooney spoke at an event at the United Nations concerning 
Middle East genocide of religious minorities, and she said 
this: ``I wish I could say I'm proud to be here, but I am not. 
I am ashamed, as a supporter of the United Nations, that states 
are failing to prevent or even punish genocide because they 
find that their own interests get in the way. I am ashamed as a 
lawyer that there is no justice being done and barely a 
complaint is being made about it.''
    Mr. Chairman, please, let us not find that in the coming 
months we will be in the position that distinguished human 
rights advocates may say the same about the United States. We 
urge Congress to pass H.R. 5961. Thank you very much.
    Mr. Smith. Mr. Anderson, thank you again for your 
leadership. As I said before, your testimony became the 
template for our bill.
    And I want to note for the record and be very clear about 
this: I want to thank Nathaniel Hurd, our lead staffer, who has 
done absolute yeoman's work on this. Thank you, Nathaniel, and 
Mark Milosch, our chief of staff for the Helsinki Commission, 
who has also been right there all the way, and other members of 
the staff. But, Nathaniel, thank you for your work in reaching 
out to so many very informed people who have helped us cobble 
together what I think is a transformation bill, if it's 
enacted. Although, as you have said, so much of this could be 
done, if not all of it, administratively if there was a 
political will to do so.
    Let me ask a few questions, and then I'll yield to my good 
friend and colleague Commissioner Joe Pitts. How much--and 
perhaps Mr. Rasche, you might want to speak to this--how much 
is needed? You did give a number. If that money is not provided 
to the Christians who are suffering, what will happen in the 
next week, months?
    We had asked Anne Richard and we had asked the 
administration if they could provide us with a witness to be 
here. They are very active at the U.N. today, so I certainly 
understand that. But we are willing to meet any time, next 
week, week after week after week after, right up--maybe not 
Election Day, but every other day before and after to hear from 
them, because we want to know what they're willing to do, what 
they're planning on doing on each of these categories.
    When it comes to the food side of it and medicines and the 
like, could you just again highlight the sense of urgency, 
which I think is missing? I said in my opening how disappointed 
I was when I watched the President's speech at the United 
Nations, and I kept waiting for at least a paragraph, at least 
a sentence, at least a word about the genocide. And when it was 
over, I threw my hands up and said, ``Not a word!'' It was--it 
was disappointing in the extreme, and I'm sure it disappointed 
many others, particularly those who are waiting with bated 
breath to have the President all in.
    But this humanitarian need, I can tell you beyond any 
reasonable doubt that I know our leadership, Speaker Paul Ryan 
is a great humanitarian and cares deeply. We need to move this 
bill quickly. I was hoping to do a markup today in my 
subcommittee. Unfortunately, that got delayed--not by me. We 
need to move quickly, because time is of the utmost. And we've 
spent months putting this together to try to leave no stone 
unturned. We're always open--and Mr. Canny, you recommended 
some changes. But this urgent need, if you could speak to that, 
and perhaps, Mr. Anderson, you could.
    And Mr. Canny, if you could speak to the issue of the 
abysmally low number of Christians who are getting referrals, 
as is pointed out in Mr. Rasche's testimony. We've heard this 
many times, but you put it very clearly. Even U.S. 
representatives privately admit that Christians would be under 
real threat of additional violence and persecution within the 
Muslim majority camps. But the reactive reflex answer they get 
from so many is: Just go to the camps. If they go to the camps, 
they're in peril. That's why this P-2 status and this idea of 
getting that interview are so extremely important.
    We had asked last October at one of my seven hearings on 
this, Assistant Secretary Richard said, ``On the P-2, the 
advantage of a P-2 category is that it helps UNHCR--it helps us 
get referrals. It facilitates that. Since we have 22,000 
referrals right now, it's not a problem for us. So it's not 
something that would benefit us right at the moment. We can 
always take a fresh look at that.''
    That was a year ago, almost exactly. It's time for that 
fresh look, because, again, large swaths of people, Christians, 
Yazidis are being bypassed, and I think that's unconscionable. 
So if you could speak to that, and any of you who would like to 
touch on that.
    Mr. Rasche. Yes, Mr. Chairman. As I said in my written 
testimony, the needs that we are meeting are fundamental daily 
needs: shelter, food, medicine. They're not the type of needs 
that allow for us to tell people, ``Hold on, it's coming in 6 
months or 8 months or 12 months.'' They're at our door every 
morning, and our situation is one where we like to say, ``We 
wake up every morning and we rob 6 Peters to pay 12 Pauls.'' We 
do that every day and we've been doing it every day for two 
years.
    We are responsible for these people, and in the absence of 
government aid, we won't stop taking care of them. We will do 
what we need to do to find that aid wherever we need to find 
it. And if that means prioritizing our relationship with other 
governments, per se, who are more willing to step into the 
void, then at a certain point we have to do that.
    The people, especially the Christians of the Kurdistan 
region in northern Iraq, view the Americans at present as their 
natural partners, and in all frankness, believe that the U.S. 
has a special moral role to play in this rebuilding. But that 
being said, the needs are existential needs. They exist every 
day. So our present need is as I've outlined. $9 million, we 
believe, gets us through these next six months with these bare 
needs. But it is a real issue for us in that our donors are 
experiencing donor fatigue on their end. There's only so long 
that you can be asking private aid dollars to take care of 
these situations.
    As far as how quickly removal of this aid would result in 
trouble for us, I fully expect that we would see riots in 30 to 
60 days if this private funding that we're now relying upon was 
pulled. There are indications that the people are close to that 
point. The people know that they are not receiving any aid from 
the U.S. Government. The people in the camps, the Christians in 
the camps, they know that they're not receiving any aid from 
the United States, and they question why is that. And these are 
difficult questions for us to answer. Again, we're not 
sheltered from these. People come directly to our faces every 
day and ask us about that. So the need for us, it's acute.
    I'll stop there and let you----
    Mr. Smith. Before we go, in followup----
    Mr. Rasche. Sure.
    Mr. Smith. ----with the winter approaching, I remember when 
George Bush, the first George Bush made the statements about 
the Kurds. We had their backs. Massive numbers fled. Saddam 
Hussein was in hot pursuit. They got to the border in Turkey. 
And we had a program called Operation Provide Comfort that sent 
in Special Forces because people were dying from exposure. I 
went with a delegation. We saw people who were on the brink, 
babies who were dying, little children who were dying. And 
everywhere you went you saw Kurdish men and women with our 
camouflage jackets just to stay warm because exposure was 
killing so many.
    With winter approaching, how much of an additional threat 
does that pose to--because I've never seen so many people at 
risk. And if it wasn't for the Special Forces--you know, the 
NGOs came in a month a later, did a wonderful job, but they 
were able to put a tourniquet on what would have been a massive 
loss of life.
    Mr. Rasche. It's a good point, Mr. Chairman. You know, I 
think the--as Americans and the general population as a whole, 
there's a mistaken belief that it doesn't get cold in Iraq. It 
snows in Erbil in the winter time. And as we come upon this 
period of time, it's important to remember, even the people 
that we've put in shelters and whatnot, it gets incredibly cold 
for them at night, and so that you have these additional costs 
for heating oil, for blankets, for these sorts of things. 
Absolutely that is a concern for us. Our costs will go up.
    Mr. Smith. And the number of people we're talking about, 
just to be as exact as we can? Just a general----
    Mr. Rasche. The number of people that we're talking about 
in the Erbil region for IDPs is for Christian IDPs--I'm not 
speaking to the Muslim population--about 70,000 people.
    Mr. Smith. And you also, as you said in your testimony, 
take care of the Yazidis?
    Mr. Rasche. That's right.
    Mr. Smith. Of that 70,000.
    Mr. Rasche. We don't take care of all of them. But in many 
of our camps, there are Yazidis who are fully integrated into 
the camps. It's a situation where, when they fled from Mosul 
and Nineveh, the Yazidis and Christians fled together. And when 
they resettled, they resettled together, and they consider 
themselves in their resettlement situations as being a village.
    To the extent when we talk to them about resettling perhaps 
as one group, when we go to the Christians and say, ``We think 
we have a better place for you to go; are you interested in 
going?'' And their response is, ``Only if the Yazidis come with 
us.'' And we go and speak to the Yazidis and say, ``We think 
we've found a better place for you to go. Will you go?'' And 
they say, ``Only if the Christians come with us.''
    Mr. Smith. Thank you.
    Mr. Anderson. Thank you, Mr. Chairman.
    Let me just reinforce what Steve has said here about what 
is occurring in Erbil. I would say, having just met with 
religious leaders from Aleppo several weeks ago, the situation 
is as bad there--perhaps worse, than where it is in Iraq.
    But let me just address what Senator Cardin said at the 
beginning with his opening statement, and that is the question 
of corruption. I would say that the delivery systems of this 
neighbor-to-neighbor type of aid through religious communities, 
religious entities and churches is not only a very effective 
delivery system--because people know each other, and people are 
living together with each other, and people who are doing that 
are the mediators for the aid--it is an effective way. It's an 
efficient way. And it is a very low threat of corruption in the 
delivery of this aid.
    And so I would encourage Congress very strongly to think 
about finding ways in which these religious communities can be 
the delivery system for this emergency aid, because absolutely 
it is needed.
    Mr. Smith. You know, is 9 million [dollars] the short-term 
number, or is it higher? This seems a low number for so many 
people.
    Mr. Anderson. Yes, it's obviously a low number, but it's 
higher than zero. So from that standpoint, it's good. But it's 
for six months. So if one were looking at an annual 
appropriation, maybe, Steve, of 20 [million] to 25 million 
[dollars], and then the NGO assistance could be on top of that, 
building educational systems, housing and putting it in a more 
permanent basis.
    But maybe you have a comment on that.
    Mr. Rasche. I think that's right, Carl. Again, the numbers 
that we're proposing right now, understanding the realities of 
where the session is, and the other constraints that we have, 
this is for those specific critical needs. But the overall 
situation in terms of rebuilding and rehabilitation--I think 
Carl's number is right.
    Mr. Canny. Thank you. The Catholic bishops have been very 
concerned about what has been raised here. That's keeping 
Christians in the Middle East and not continuing to deplete 
their presence. Muslim leaders in the Middle East consider the 
Christian presence critical, both historically and today.
    However, for those who are forced to leave and get out, 
we've found, again, statistically that they're not registering 
in the United Nations system for the registration as refugees. 
We think there are a number of reasons. As indicated in the 
Knights of Columbus report, the camps they don't feel are safe 
places. However, 85 percent of refugees are outside the camps.
    So how do we get them registered in the system? UNHCR has 
put up some mobile capacity to go out and register. It has 
clearly not been successful. Therefore, I think that a P-2 
designation is warranted, which, as you said, Chairman, allows 
them to get into the system quickly and more regularly, and 
more efforts to get out and reach those Christians and other 
minorities that are outside of the countries in which they 
exist originally is critical.
    Mr. Smith. You know, just on that point, the President, I 
thought, used very poorly chosen words, at least, and if this 
sentiment really is behind it, it is despicable, when he said 
he didn't want a religious test. I was shocked at it, frankly.
    My first trip to the Soviet Union in 1982 was on behalf of 
the Soviet Jewish Refuseniks who had P-2 category because they 
were being put into psychiatric prisons, Perm Camp 35--I 
actually went there in the mid-1980s--and Christians were also 
included in that P-2 designation, Ukrainian Catholic and 
evangelicals. I met the Siberian Seven, who had gotten into our 
embassy. This is all in 1982.
    This is not a religious test, and having the genocide 
designation says this administration acknowledges the 
existential threat they face. So you have to provide additional 
remedies.
    So I do hope that he'll step back from that statement, so 
that whether he supports this bill or not--again, he can even 
do it administratively, if he so chose.
    Just a couple questions. Then I'll go to my friend Joe 
Pitts.
    Mr. Engels, you talked about the linkage evidence. I 
thought that was a really strong point. We do have study after 
study saying how bad it is, showing the linkage to personal 
responsibility. And I thought, Ambassador Scheffer, your points 
and your case studies about the infirmity of our U.S. law to 
prosecute people who have committed heinous crimes, crimes 
against humanity, war crimes--and you went through several--is 
just absolutely compelling.
    And you know, this Commission contemporaneously with the 
Srebrenica massacre--I've been there, I've been there for 
reinternments--as you pointed out, one of those who committed 
those horrible crimes--8,000 dead Muslim men, in Srebrenica, a 
U.N. safe haven--and yet he lived in the United States, in 
Massachusetts, and was only charged with visa fraud. I mean, 
that's outrageous.
    And you went through a whole group of people--Guatemala, El 
Salvador--Mederos in the Cuban regime, Armando Valladares 
talked about the very thing he did, urine and excrement, as 
well as electroshock treatment, and here he is living here and 
you know, he wasn't prosecuted either. The killer of 
archbishop--the assassin of Archbishop Romero, now a saint in 
the Catholic Church, another one.
    Then you even talked about George Boley, who committed 
horrible crimes in Liberia, and he's now a destabilizing 
factor, apparently, in Liberia again. And we could have 
prosecuted him. You know, they were able to get Charles Taylor 
50 years, but this man was here in the United States and is now 
back destabilizing Liberia, which is not out of the woods yet.
    So thank you for that. My hope is that, again, the 
administration, either this Attorney General or the next, even 
without the law--I will push on this till it's law, I can tell 
you that--every bill I have ever introduced, I don't stop 
until, God willing, we get it.
    And you know, Ben Cardin mentioned the trafficking work. I 
wrote the Trafficking Victims Protection Act. Took three years 
to get that passed, had one roadblock after another. Finally, 
in 2000 it became law. We will push on this until it's law.
    But time is of the urgency. You know, there are bad people 
walking our streets that need to be prosecuted.
    So I want to thank you for just highlighting so strongly 
and, given your credentials, why this needs to be done. So if 
you want to elaborate on that and, again, on this idea of the 
linkage, so that we can start prosecuting.
    Amb. Scheffer. Thank you so much, Mr. Chairman, for those 
kind words. I would simply make a couple of comments.
    There is no contradiction between this massive requirement 
to deal with the victims and also the massive requirement for 
accountability. The victims are victims because of those who 
need to be brought to justice. We should be able to walk and 
chew gum at the same time in our own government and be able to 
deal with the victims, provide them with assistance, recognize 
that that they are victims. You know, a large number of Syrians 
are Syrian Muslims who are victims, and we need to recognize 
that.
    In terms of accountability, the work that Chris's 
organization is doing--and I know of it quite well--is 
absolutely invaluable. We know, in the work of the war crimes 
tribunals that I've focused on for 25 years, that the 
investigation of these crimes is an incredibly difficult 
challenge because when you look at atrocity crimes, the number 
of crime sites, and being able to reach that chain of 
responsibility up to a leadership level is a very, very 
difficult evidential challenge. It's not like investigating a 
single murder. It's investigating 20,000 murders. And courts 
will demand that a certain amount of evidence be demonstrated 
in order to bring a leader to justice. And they will have the 
very best defense counsel you can imagine.
    So these are two very complementary aims, and I just think 
that our government should be able to accept these challenges 
with coherence and with a sense of mission for the fate of our 
brothers and sisters overseas.
    I just want to make one final comment. You know, when I was 
Ambassador-at-Large for War Crimes in the late 1990s, I also 
had the responsibility of literally going to atrocity scenes as 
quickly as possible. I sometimes would show up within hours of 
the massacres, and I would see the victims and all of the 
carnage.
    I want to pay a compliment to my colleagues in the Catholic 
community. So often when I showed up at a scene in Africa or in 
the Balkans, the first relief that came on the scene--this 
would be within hours if not a day or so of the atrocity--was 
Catholic Relief Services. Then the U.N. would get there within 
a number of hours later, but it was the Catholic Relief Service 
vehicles that I saw pulling up and immediately dealing with the 
most urgent concerns that no one else was dealing with yet.
    So I think we need to be listening to our colleagues in the 
Catholic community. They know what they're doing, and they 
provide that assistance with such critical urgency when it 
occurs.
    Mr. Engels. Thank you again for the comments. Just to 
elaborate a bit on the points that you made related to 
perpetrators and linkage evidence, it is my experience, our 
experience, that in the past a large amount of the hard work on 
the ground has taken place only after there was political 
consensus on what form of tribunal would be established, 
whether it be an ad hoc, a local court with international 
support, a hybrid court.
    The problem with that model is that, as we know, it takes 
time to build consensus on whatever that tribunal might look 
like. If we wait until then to begin investigations, then we've 
lost a great deal of time, and indeed much evidence can be 
lost, never to be retrieved again.
    But that's only part of the work that we try to do now. The 
other element to that is in the great hope that whatever the 
justice mechanism is, it will also include Syrians and Iraqis. 
What we've also seen in the past is that no work is done to 
build the capacity of local lawyers, investigators, judges, 
again, until there is some final decision on what form a court 
will take. And that then means again we're behind.
    So at one instant, a court is established, and then the 
victims, the people who experienced the crime, want justice at 
that point. They see momentum. But indeed that's only a 
beginning if nothing's done in preparation, because you still 
have to train the individuals that will be there, because of 
course even if you're an excellent judge or prosecutor, you 
haven't worked in war crimes before. So it's new subject 
matter. And indeed without the evidence being collected, it 
means that justice will again be delayed.
    So our work is really focused on trying to do what we 
didn't do before and do it better, and that is prepare for the 
hopeful one-day international or hybrid mechanism that can 
prosecute these crimes while at the same time we take advantage 
of the jurisdictions that are available today.
    With the large refugee flows going into Europe, we know 
that perpetrators are in those flows. And that's why, as I 
mentioned earlier, we work directly with war crimes prosecutors 
in Europe and in North America to identify and provide our 
evidence to those individuals today--evidence that couldn't be 
attained otherwise, because the conflict is ongoing--to ensure 
at least we can demonstrate to the Syrians and to the Iraqis 
who are in those refugee flows, that when individuals do come 
within a jurisdiction which does have the rule of law and has 
the ability to prosecute them, the evidence will be there and 
will be ready and waiting for them.
    Amb. Scheffer. Just 10 seconds--I just thought I would add 
that I do not think it's mission impossible to actually create 
a tribunal that deals with the Syrian and Iraqi atrocity 
crimes. The Russian veto has blocked us in the Security Council 
in terms of referring the situation to the International 
Criminal Court. But I wrote a couple of years ago an article 
that perhaps I could submit to the record, if you would permit 
me to, from The Los Angeles Times, in which I proposed a 
tribunal that would be constituted through a treaty between the 
U.N. General Assembly and certain key governments in the region 
who are clearly impacted and thus can claim extraterritorial 
jurisdictional bases for holding individuals accountable for 
crimes that are having such an enormous impact on their own 
territory.
    That would require leadership, though, a tremendous amount 
of political will. But frankly, if you work it through the 
General Assembly, you can avoid the Russian veto.
    Mr. Smith. I'd like to yield to Commissioner Pitts.
    Mr. Pitts. Thank you, Mr. Chairman, for holding this 
hearing. Thank you, all of you, for your efforts, for your 
testimony. I'll just go down the line.
    Mr. Engels, what's your understanding of what the U.S. 
Government is doing to support criminal investigations of 
atrocity crimes committed in Iraq or Syria, and to support the 
apprehension of the perpetrators?
    Mr. Engels. I think that the focus thus far has been on 
another key element of transitional justice, and that is on 
documentation--supporting NGOs and other groups that are 
documenting crimes, the crimes that are being committed, and 
supporting advocacy NGOs that are making sure that the public 
is aware of the atrocities that are being committed today and 
have been being committed for years. And that is a great and 
very important focus.
    It is of course my position, because of the work that I do 
and my narrow focus in the bigger picture of transitional 
justice, that it would be of great help and assistance if--not 
only financially but also giving the backing of the U.S. 
Government, if more work was done to support NGOs who are also 
working on the criminal justice side to ensure that these 
individuals do come to justice one day.
    Mr. Pitts. Thank you.
    Ambassador Scheffer, you said in your written testimony 
that ``while their number is unknown, there probably are 
individuals who committed atrocity crimes overseas and have yet 
to be discovered currently residing in the United States.'' In 
fact, you mentioned the word ``safe haven.'' How many such 
perpetrators might be in the U.S. now, and what are the most 
egregious examples of the perpetrators currently living in the 
U.S. without being prosecuted?
    Amb. Scheffer. Congressman, I'm always careful not to throw 
numbers out that I can't substantiate, obviously, but we do 
know from our end--that's why I added to my oral testimony that 
the Human Rights Violations and War Crimes Unit of ICE in the 
Department of Justice actually does have numbers of 
individuals--1,900 leads on investigations right now for 
individuals in the United States, and 125 active 
investigations. Since 2004, 780 individuals have been removed 
through this process. We don't know if that's the tip of the 
iceberg or whether that's the iceberg. But I think when you're 
talking about many hundreds of individuals who range in 
character from those who perpetrate massive crimes against 
humanity to even single human rights violations or single 
instances of tortures of various victims, it's still a matter 
of considerable concern.
    So we continue to search and we continue to find that even 
as Chairman Smith mentioned earlier, suddenly we discover that 
there are individuals from the Bosnian conflict, from the 
Somalian conflict, from conflicts of 20, 30 years ago who are 
discovered here, just as we continue to find rather elderly 
individuals from Nazi Germany who suddenly pop up on our 
screens in this country. And of course the Justice Department 
has a lot of those who committed immigration fraud to secure 
their presence in the United States 40, 50 years ago.
    You had a second question for me, Congressman, beyond that.
    Mr. Pitts. Just some of the more egregious examples----
    Amb. Scheffer. Oh. Well, could I point you to the 
attachments that I have to my written testimony, which truly do 
I think offer you a number of examples. They are compiled by 
the Center for Justice and Accountability, and also at my law 
school, and I think we've mentioned some of those. I can go 
into more detail if you wish, but there are attachments to my 
written testimony.
    Mr. Pitts. All right. Thank you.
    Mr. Rasche, if Christian IDP families leave Iraq, how 
likely are they ever to return?
    Mr. Rasche. Highly unlikely. It's important to understand 
that the people that are there now, the families that are still 
in Iraq--they're the last survivors. And if they're forced to 
take this next step, which would be to flee into the emigrant 
diaspora in Europe and other places, that's a one-way door for 
them. They will not come back. And I can say this from personal 
experience because we've lost families and people that we 
invested time in that we had hoped would stay, and when we 
speak to them about their views on things, they've just made it 
clear that once they go, they're on their way.
    Mr. Pitts. Thank you.
    Mr. Canny, you mentioned the small number of Christians 
among the refugees resettling in the U.S. Why is the number so 
small? Would you elaborate?
    Mr. Canny. Well, one of the reasons is it's hard to put 
together the full picture because they're on the move, of 
course, they're in many different areas, they often aren't 
coming out due to their own fears. But they're not in camps 
where traditionally we find people to resettle, so they're in 
urban areas. Therefore special measures have to be made to go 
out and find them and get them to register by the United 
Nations. They're not as adept at doing that as perhaps we would 
want them to be. You have to be encouraging them to do that.
    Other reasons include--many of them we think are in 
Lebanon. We've been slow to register people in Lebanon, 
particularly the U.S. Government, due to security reasons for 
our own personnel. So we have a unit there now, the government 
does, but it's registering people slowly related to personal 
security.
    Those are a couple of the reasons for this. Those who have 
left we don't think will go back, as Steve mentioned, and so we 
need to provide them an easier access to being resettled.
    Mr. Pitts. Mr. Anderson, when you have asked U.S. or U.N. 
officials the question you shared in your written testimony--
why aren't the communities that are victims of this genocide 
receiving public aid?--and I think you said no U.S. aid as 
well--have they ever shown openness to reevaluating how they 
deliver aid so that it reaches genocide survivors?
    Mr. Anderson. No.
    Mr. Pitts. Why?
    Mr. Anderson. I think the point Steve made gave us some 
insight on that in the sense that they are looking at 
individuals and many of the non-Christians individually are 
worse off because they have not been taken in by their 
neighbors in the same way that the Christian communities have 
reached out to their neighbors in need and brought them in. So 
it's possible to look at the individual level, and there are 
many Muslim IDPs who are in worse shape than the Christian 
IDPs. But that doesn't account for, as I said, the 
survivability of these individuals as a community, which is the 
long-term test of their survivability.
    Mr. Pitts. But, you said no U.S. aid has gotten to these 
communities. Is that correct?
    Mr. Rasche. That's correct.
    Mr. Pitts. Go ahead.
    Mr. Rasche. That's correct. Just to reiterate what Carl has 
said, it's not that the people we have spoken to within the 
established aid community don't understand the argument that 
we're making. They understand it. Their response is, we have an 
Individual Needs Policy which doesn't allow for us to deviate 
and address your particular situation, and that's the way it 
is. And we've found this time after time after time.
    One other thing I'd like to briefly clarify regarding the 
potential return of Christians to Iraq--I don't mean to 
preclude that there is no situation in some future stable 
regime that they would not consider returning. What I'm 
speaking to is within the foreseeable future with the issues 
that they're all facing. Once they enter that exit stream, 
they'll continue going until they reach some other destination.
    Mr. Pitts. So, would this P-2 classification that Mr. Canny 
mentioned overcome this?
    Mr. Rasche. Well, you know, the P-2 classification I think 
would provide for great help to the people that have already 
made that step to enter into the emigration stream at great 
personal risk to themselves. I've spoken this morning about the 
Christians in and around Erbil. But many of their family 
members are now in Lebanon, in Turkey, in Jordan and in other 
places, and in really dire and hopeless situations, and this P-
2 designation would certainly assist them and assist them 
greatly.
    Mr. Pitts. Thank you, Mr. Chairman.
    Mr. Smith. Thank you very much.
    Just a couple of final questions. One of the lessons 
learned from Bosnia was that so many of those who were 
encouraged to return--one, they weren't returning to all that 
much, whether in the Republika Srpska or Bosnia. But when they 
did return, their next-door neighbor or someone on the street 
was someone who committed atrocities and there was never any 
kind of accountability. So prosecution and convictions--making 
facilitation of return more probable, if you might want to 
speak to that, because I think that is a huge issue. At the 
right moment they can flare up and do it again. Plus, you're 
buying a loaf of bread--the guy right next to you just killed 
five people in your family.
    Secondly, if I could ask Mr. Engels--you have 40 people in 
Syria, 20 in Iraq, 130 that work in your organization. I was 
just in South Sudan and was struck by how many humanitarian aid 
workers and human rights monitors had been targeted by both 
sides, by Salva Kiir's government as well as by the newer vice 
president who is now out of the picture, because they see them 
as spies. They were blaming the United States, humanitarian aid 
workers, and it was Salva Kiir's people. There's an 
investigation in there. But how many--have there been any 
fatalities, casualties among your 40 in Syria or 20 in Iraq? 
That is very, very difficult.
    And while you're answering, I noticed you attached in your 
testimony where you get your money from--the U.K., European 
Union, Canada, Denmark, Norway, Germany, Iraq and Switzerland--
but I don't see the United States. Have they turned you down or 
they just are not interested? It seems to me this is an 
endeavor that we ought to be backing.
    Mr. Engels. First, on the question of the risk to our 
people working in that area, I think it's an incredibly 
important question and it's something that we of course take 
very seriously. Because of the work that we do, we have very 
serious security protocols and we don't take risks lightly.
    Given the work that's going on and the individuals that we 
have in the field, I think there are two levels of risk that 
need to be addressed. One is the general risk to anyone who 
chooses to stay and work in Syria and Iraq, rather than leave. 
That risk is there no matter if you wear a white helmet running 
into a building that's just been attacked, trying to save 
civilian lives, or you're working in a hospital trying to do 
the best you can to mend the damage that's been done by those 
who are attacking civilian objects, or if you're a journalist, 
or if you're an investigator. So that level of risk is there 
for anyone who chooses to stay and operate in what is indeed a 
serious conflict.
    The individuals that we have working for us have chosen to 
take that risk. They mostly come from legal backgrounds and 
they see that this is the thing that they can do for a future 
and peaceful Syria and Iraq. And indeed it is that belief that 
you just mentioned, that justice and accountability will be key 
for them to later on having a sustainable peace. And that's the 
reason that they stay.
    The second tier I think of risk is that which might be 
specific to the job that they do, and that is of course 
something we focus on every day. We make sure that our people 
aren't in harm's way. If there's the possibility that moving 
documents across lines would incur additional risk, then we ask 
them not to do it. We ask them to put the documents somewhere 
else and wait for another day, because we know that while 
justice is important, there is a balance, and today we don't 
want our people being injured or hurt in the furtherance of 
what we hope to be successful prosecutions later down the road.
    And to the second part, on U.S. funding, no, we haven't. We 
have asked. We haven't found the right pot of money or the 
right avenue to pursue. We've done a lot of asking and 
attempted to figure out where we fit, and I think that that is 
something that hopefully this type of legislation will improve 
for not only us but other organizations doing this work, 
because we are doing something that's not in a traditional 
funding stream, which makes it potentially more difficult. So 
indeed, no, we have not found that stream yet.
    Mr. Smith. And, Ambassador Scheffer, while you're answering 
that, you point out that H.R. 5961 requires answers at the 
current state of our federal law. Could you tell us, do other 
countries have a law like we would like to ultimately have, and 
do they prosecute people who commit war crimes who are then 
residing within their boundaries? Do you have any idea which 
countries those might be?
    Amb. Scheffer. On your first question, yes, there are many 
other countries. There are 72 countries that have crimes 
against humanity laws on the books. What I do not have for you 
is empirically how often are those laws actually activated to 
prosecute individuals. What they do--and would love to see 
that--I would love to see that data created someday by 
researchers that I could gather for that.
    But the reality is that those countries that have the 
crimes against humanity laws on the books--and they include all 
of our major allies--they are able to demonstrate to the world 
and of course to the International Criminal Court under 
complementarity principles, that they're able to do this job 
themselves. They don't have to rely on another jurisdiction or 
the International Criminal Court to actually pursue these 
prosecutions.
    Also, it helps them tremendously in extradition treaties 
because under the double criminality rule, if we have crimes 
against humanity laws, someone else does, it's a much easier 
extradition procedure to ensure prosecution in the appropriate 
jurisdiction--perhaps where the crime scene is, et cetera. So 
it just makes extradition practice much, much more fluid and 
doable to be able to have similar criminal statutes in the two 
jurisdictions.
    But no, I just don't have the empirical data on how many 
have actually been prosecuted, but it has occurred.
    I was just going to further elaborate on something, Chris, 
that you were saying, and I've lost my train of thought 
answering the first question, so I apologize.
    That's fine. I've finished.
    Mr. Smith. Okay. Thank you.
    Before we conclude, does anybody else have anything else 
they would like to add?
    Amb. Scheffer. Oh.
    Mr. Smith. Yes?
    Amb. Scheffer. It has occurred to me what I was going to 
say about Chris's testimony.
    You know, when we created the Office of War Crimes Issues 
in the State Department in the late 1990s, we had no budget. I 
had to scrape my budget together for my staff literally from 
other parts of the department, from other agencies, through 
secondments, et cetera. And I didn't have any funds to actually 
launch initiatives like this whereby we would find an 
investigative capacity elsewhere and we'd like to be able to 
provide funding to it to assist our government, to supplement 
our government's work, et cetera. And it seems--I may be 
misinformed these days, but I have the impression that that 
situation has persisted, that probably the Office of Global 
Criminal Justice, which is the successor name in the State 
Department, probably does not have any kind of significant 
budget to actually administer for these purposes. That's why I 
think Chris is saying where do we find this particular pot of 
funding within the U.S. Government. It's a very difficult 
exercise to try to find it.
    Mr. Smith. Thank you all for your testimony, and we will 
reconvene shortly when we hear from the administration. There's 
a standing invitation there. I hope they come soon. I just 
mentioned to my staff, any day but Election Day--[laughs]--but 
we stand ready. And a trip to Erbil--we'll put together a CODEL 
to again try to bring additional word back to our colleagues 
about the urgency of the situation.
    So, thank you so very, very much for your extraordinary 
work. The hearing is adjourned.
    [Whereupon, at 11:52 a.m., the hearing was adjourned.]

                          A P P E N D I C E S

=======================================================================


                          Prepared Statements

                              ----------                              


 Prepared Statement of Hon. Christopher H. Smith, Chairman, Commission 
                 on Security and Cooperation in Europe

    Seven months ago, the Independent International Commission of 
Inquiry on the Syrian Arab Republic reported that ``The [Syrian] 
Government has committed the crimes against humanity of extermination, 
murder, rape or other forms of sexual violence, torture, imprisonment, 
enforced disappearance and other inhuman acts.'' More than half a year 
ago, Secretary of State Kerry declared that ISIS ``is responsible for 
genocide against groups in areas under its control, including Yezidis, 
Christians, and Shia Muslims.'' They were acknowledging the facts-on-
the-ground and affirming what I and many of you in this room had been 
saying for years.
    The atrocities in Iraq and Syria have been so horrible, for so 
long, with so little action from the Administration, that it has been 
difficult to hope. Nevertheless, when the Secretary declared genocide, 
we dared to hope that finally the Administration would hear the voices 
of the victims and act. Instead, the Administration has said the right 
words and done the wrong things.
    I have chaired seven hearings focusing on genocide and other 
atrocities committed in Iraq and Syria. In March, the House passed 
almost unanimously the resolution that I authored, H. Con. Res. 121, 
advocating for the formation of an ad hoc tribunal for perpetrators in 
the Syrian conflict. This has gone nowhere. The Administration has 
seemed uninterested and has taken no action. This May, I chaired a 
hearing after the genocide declaration, asking the question ``What 
next?'' Half a year later we have the answer from the Administration: 
Not much. When given the opportunity to speak about the genocide during 
his recent address to the entire UN General Assembly, President Obama 
said nothing. How could he be silent about a modern genocide that has 
been happening on his watch?
    Administration officials have stated that it is in the interests of 
the United States to enable Christians, Yezidis, and other religious 
and ethnic communities to remain in their ancient homelands of Iraq and 
Syria. Yet, the Administration has so far refused to identify the 
humanitarian needs of these communities and provide them with 
assistance so that they are able to survive in their home country. 
Displaced genocide survivors cannot pay for food, medicine, or shelter 
with words from Washington. It is inexcusable that the Administration 
is hiding behind misinterpretations of humanitarian principles to avoid 
supporting entities that are serving these communities.
    Shockingly, Steve Rasche, Legal Counsel and Director of IDP 
Resettlement Programs for the Chaldean Catholic Archdiocese of Erbil in 
Iraq, will testify that ``throughout this entire period of crisis, 
since August 2014, other than initial supplies of tents and tarps, the 
Christian community in Iraq has received nothing in aid from any US aid 
agencies or the UN.''
    Carl Anderson, Supreme Knight of the Knights of Columbus, who 
provided a template for our legislation, will also testify that ``We 
know that many Christian and Yazidi victims of genocide do not receive 
public aid.''
    When he made his genocide declaration, Secretary Kerry said that 
``the United States will strongly support efforts to collect, document, 
preserve, and analyze the evidence of atrocities, and we will do all we 
can to see that the perpetrators are held accountable.'' Yet the 
Administration has primarily treated the genocide, crimes against 
humanity, and war crimes in Iraq and Syria as human rights violations 
that need to be documented. These crimes are indeed human rights 
violations and documentation, like videos of the Assad regime bombing 
hospitals and schools, helps raise awareness in real time.
    Yet first and foremost, they are crimes committed by perpetrators 
who need to be investigated and prosecuted. This requires collecting, 
preserving, and preparing evidence that is usable in criminal trials. 
Private groups, like one we will hear from today, are doing this work, 
literally risking their lives, without financial support from the 
United States. Chris Engels from the Commission for International 
Justice and Accountability will testify that ``CIJA's 130 personnel 
collect evidence, ensure its safe storage, and undertake legal analysis 
with a view to preparing trial-ready case files for present-day and 
future criminal prosecutions in domestic and international 
jurisdictions,'' with funding from governments other than the United 
States. There is no justification for leaving other countries to ensure 
this work continues and perpetrators are punished.
    When the Executive Branch fails to acts, then Congress must require 
it to act. That is why I recently authored and introduced the 
bipartisan Iraq and Syria Genocide Relief and Accountability Act of 
2016 (H.R. 5961), with Representative Anna Eshoo as my lead cosponsor. 
She has been a tireless champion for Christians and other religious 
communities brutalized by ISIS, consistently pushing the Administration 
to act, and I am grateful for her efforts. Our partnership is evidence 
that this is not about partisanship.

On accountability, H.R. 5961: 
    <bullet>  Requires the Secretary of State and Administrator of the 
U.S. Agency for International Development, USAID, to support entities 
that are conducting criminal investigations into perpetrators and 
building investigative and judicial capacities in Iraq.
    <bullet>  Directs the Secretary of State to work with our allies to 
ensure that identifying information about perpetrators is included in 
security databases and security screening to enable apprehension and 
prosecution.
    <bullet>  Requires the Attorney General to review U.S. criminal 
statutes for gaps in being able to prosecute American perpetrators or 
foreign perpetrators present in the U.S.

On assistance for genocide survivors and other Iraqi and Syrian 
religious and ethnic groups that have been persecuted, H.R. 5961 
requires the Secretary of State to identify:
    <bullet>  Threats of persecution, and other warning signs of 
genocide, crimes against humanity, or war crimes.
    <bullet>  Which groups of genocide survivors or other persecuted 
religious or ethnic communities are at risk of forced migration and the 
reasons for these risks.
    <bullet>  U.S. assistance that has actually reached, and is planned 
to reach, these communities.
    <bullet>  Entities, including faith-based ones, that are 
effectively providing assistance on-the-ground to these communities.
    <bullet>  U.S. funding for such entities, if it is funding them, 
and justification if the Administration is not. The Administration 
would have to explain whether funding these entities is prohibited 
under U.S. law.

    Finally, H.R. 5961 requires the Administration to designate members 
of the three genocide-surviving groups, as well as members of other 
persecuted religious and ethnic groups, as of ``particular humanitarian 
concern'' to the United States. This would create a Priority Two, often 
know as P-2, category. Individuals who meet the criteria would be able 
to access the overseas interview process for the U.S. Refugee 
Admissions Program without needing a referral from the UN, an NGO, or 
the U.S. government.
    Under U.S. law, an Administration can make a P-2 designation 
anytime without needing additional authorization from Congress. The 
United States has a long history of P-2 designations, some created and 
required by Congress, like Jews from the former Soviet Union, and some 
created by an Administration, like ethnic minorities from Burma in 
Malaysia.
    This bill is clear: They would have to clear the same security 
screening as other Iraqi and Syrian refugees before they can be 
admitted to the United States.
    One can vote for the SAFE Act, as I did, and support this P-2 
provision, as I do. This P-2 designation provides an extra avenue for 
displaced genocide survivors to get into the U.S. refugee admissions 
application system. The SAFE Act focuses on security screening and 
security certification once they are in the system. We can and we must 
remain vigilant about our security and committed to compassion for 
refugees.
    I ask my fellow Members of Congress, including my fellow 
Commissioners from the House, to cosponsor H.R. 5961 and help ensure 
that it is marked up and onto the floor for a vote as soon as possible. 
I ask those of you in the audience today to urge your Member of 
Congress to cosponsor this vital legislation and ask people you know to 
do likewise. Although time is running out for this Congress, there is 
still time to pass this bill and send it to the President to sign into 
law.

Prepared Statement of Hon. Roger F. Wicker, Co-Chairman, Commission on 
                   Security and Cooperation in Europe

    Mr. Chairman, thank you for convening this hearing on atrocities in 
Iraq and Syria.
    The oppression of Christians and other religious communities in 
Syria and Iraq has led to an unspeakable humanitarian crisis. Hundreds 
of thousands of them have had to flee their homes to seek sanctuary 
from the Islamic State--whose savage treatment of these people is well-
documented. The United States has historically protected minorities 
facing similar circumstances, and we should do so again now.
    I am delighted to see Chris Engels, from the great state of 
Mississippi, testifying this morning about the heroic and dangerous 
work he and his colleagues at the Commission for International Justice 
and Accountability are doing to investigate perpetrators of atrocities 
in Iraq and Syria. I hope that the U.S. government will support these 
vital criminal investigations.
    I look forward to hearing from our witnesses on this and other key 
aspects of the proposed legislation. Mr. Chairman, thank you for 
calling this hearing and for your proposals to help address the ongoing 
human tragedy in Iraq and Syria.

    Prepared Statement of Hon. Benjamin L. Cardin, Ranking Member, 
            Commission on Security and Cooperation in Europe

    As the number of conflicts around the world continues to grow, and 
with so many lives in the balance, it is difficult to imagine a more 
urgent priority than preventing mass atrocities and genocide.
    There is nowhere where this more evident than in Iraq and Syria.
    The Assad regime has dropped over 2,000 barrel bombs on its own 
people--hitting mosques, hospitals, schools, and other civilian 
infrastructure. The death toll over the course of the conflict has, by 
some estimates, surpassed 400,000 people. And that figure does not 
include the tens of thousands of missing Syrians. Bashar Assad and his 
regime must be held accountable for the systematic murder and torture 
of an untold number of innocent Syrian men, women and children.
    However, the Syrian regime is not the only actor responsible for 
atrocities. As ISIL expanded beyond Mosul, an estimated 450,000 
Yezidis, 300,000 Turkmen, and 125,000 Christians, as well as Iraqi 
Arabs, Shia Muslims, Sunni Muslims, Shabak and other ethnic and 
religious groups, were forced from their communities.
    On March 17, of this year, Secretary of State John Kerry issued a 
declaration stating, that in his judgement, ISIL ``is responsible for 
genocide against groups in areas under its control, including Yezidis, 
Christians, and Shia Muslims,'' and is ``also responsible for crimes 
against humanity and ethnic cleansing directed at these same groups and 
in some cases against Sunni Muslims and Kurds and other minorities.''
    The United States is leading the charge to see justice done for all 
the victims of ISIL's depravity. U.S. technical assistance in 
geospatial analysis helps to identify potential mass graves behind ISIL 
lines.
    Soon after the dust settles and ISIL is evicted from towns and 
territory, U.S. assistance is on the ground helping to excavate and 
preserve those mass graves and identify victims while supporting those 
who have survived ISIL atrocities, including the many victims of sexual 
and gender-based violence.
    But more can and should be done.
    Ultimately, the full extent of ISIL's crimes must be exposed by an 
independent investigation and formal legal determination by a competent 
court or tribunal with international support. It is also important to 
again note that ISIL is not the only perpetrator of atrocities in Iraq 
and Syria. It is therefore critical to hold all perpetrators 
accountable for the atrocities they have committed, regardless of their 
sect, ethnicity or political affiliation, through fair, credible 
trials--in Iraq, Syria, and beyond. Absent or arbitrary justice creates 
the fertile ground in which ISIL, and other extremists, can flourish.
    As Ranking Member of the Senate Foreign Relations Committee, I have 
made the promotion of international human rights and the prevention of 
atrocities and genocide a central component of my work.
    Through the Genocide and Atrocities Prevention Act of 2016, the 
Global Magnitsky Human Rights Accountability Act and the Syrian War 
Crimes Accountability Act, I have worked to ensure that, when the 
warning signs start to point towards possible conflict and atrocities, 
we have a more nimble, efficient, and effective response so our 
strategic investments can have a greater impact on promoting stability 
and security.
    The Genocide and Atrocities Prevention Act fleshes out the Atrocity 
Prevention Board's functions, and, importantly, institutionalizes a 
mechanism for rapid, flexible funding when a crisis is occurring. The 
Genocide and Atrocities Prevention Act will ensure that civil society 
has a say in how the U.S. government conducts its atrocities prevention 
efforts, and Congress will have a greater oversight role to make sure 
we are getting it right.
    We must also remember that an important component to prevention is 
accountability; however, this is an area that I think we need to focus 
more attention to. Accountability must be part and parcel of our 
atrocity prevention work.
    So, the consequences for these types of gross violations of human 
rights must be substantive and real. This is why I am fighting hard to 
get my Global Magnitsky Human Rights Accountability Act passed into 
law. It authorizes the President to impose sanctions on individuals 
responsible for gross violations of internationally recognized human 
rights, putting them on notice that they cannot escape the consequences 
of their actions.
    It's also why I've lead a bipartisan effort to hold Bashar Assad 
and his regime accountable, via the Syrian War Crimes Accountability 
Act, for the atrocities they have committed. It's why, make no mistake, 
we will hold ISIL responsible for the genocide it has perpetrated 
against Muslims, Yezidis, Christians, and other religious and ethnic 
groups in Syria and Iraq.
    I'm speaking about the importance, in other words, of transitional 
justice. Transitional justice is essential to genocide and atrocity 
prevention. It is the moral imperative that guides our response to 
serious human rights violations, because the end of impunity and the 
promotion of truth and justice are not simply about accountability, but 
are about helping societies heal after the trauma of conflict.
    Transitional justice, in the form of credible and impartial fact-
finding, is our best defense against the danger of collective blame 
because only credible accountability--that in which victims believe--
can bring justice, deterrence, and help to break the many recurring 
cycles of violence around the world.
    I thank the Helsinki Commission for putting a spotlight on this 
important issue and I look forward to the testimony of our witnesses.

Prepared Statement of Chris Engels, Deputy Director for Investigations 
and Operations, Commission for International Justice and Accountability

    Please let me begin by thanking you, Chairman Smith, Co-Chairman 
Wicker, distinguished Commissioners, and the U.S. Helsinki Commission, 
for your steadfast support over the decades for the establishment of 
the rule of law and the promotion of human rights around the world. Let 
me also thank the Chairman and all the members of this Commission for 
their continued engagement to address the ongoing conflicts in Syria 
and Iraq, specifically the mass atrocities being inflicted upon the 
people by their own government as well as by militant extremist groups 
like the Islamic State. In this regard, I am honored to testify before 
this august Commission on efforts to combat these mass atrocities 
through individual criminal accountability.
    By way of introduction, my name is Chris Engels and I serve as 
Deputy Director for Investigations and Operations at the Commission for 
International Justice and Accountability, or CIJA for short. In my 
testimony today, I will begin by introducing CIJA, how the organization 
came about in response to a serious lack of engagement by public 
institutions, and the intricacies of our atrocity investigative work in 
Syria and Iraq. Thereafter, I will discuss how CIJA's work relates to 
the subject of today's hearing, the Iraq and Syria Genocide Relief and 
Accountability Act of 2016, a much-needed, not to mention overdue, 
piece of legislation sponsored by Chairman Smith, with the co-
sponsorship of other distinguished Members of the House of 
Representatives. Finally, I will conclude by putting forth 
recommendations for U.S. action that support U.S. interests in Syria 
and Iraq, namely the cessation of atrocities, the establishment of 
long-term peace and security, and the eradication of terror being 
unleashed by the Assad regime, the Islamic State, and other parties to 
this horrid conflict.
    This Commission is already familiar with the extent of the mass 
atrocities occurring in connection with the Syrian civil war and its 
spill over into Iraq. Some members of this Commission personally heard 
testimony from the Assad regime defector, known as ``Caesar,'' who 
smuggled thousands of images from Syria showing the Assad regime's 
systematic torture and murder of individuals--deemed ``enemies''--in 
security centers throughout Syria. By passing House Resolutions 75 and 
121 so overwhelmingly, Representatives have denounced the horrific war 
crimes, crimes against humanity, and genocide (collectively called 
atrocity crimes) being perpetrated by the Islamic State, the Assad 
regime, and others militant actors in Syria and Iraq.
    For years now, human rights groups, as well as the United Nations, 
have sounded alarm bells in the wake of the blatant disregard for 
humanity and catastrophic displacement occurring in Syria and Iraq. In 
addressing the Commission, my role today is not to elaborate on these 
facts which, unfortunately, are known all too well. Instead, I am here 
to talk about individual criminal accountability for these terrible 
crimes and the current, as yet untapped, opportunities for the U.S. 
government to support organizations working to ensure those responsible 
see the inside of a courtroom. My role is, further, to highlight the 
concrete steps being taken, as well as additional steps that can be 
taken, now to secure justice for the victims of the continuing 
atrocities in Syria and Iraq. Like CIJA, I am sure this Commission and 
other members of Congress want to see such discussion take the form of 
concrete action.
    So, what is CIJA? In short, CIJA is a non-governmental organization 
that carries out criminal investigations of atrocity crimes that adhere 
to the highest standards found in any international or domestic 
jurisdiction. Its senior leadership is made up of individuals with many 
years of experience in international and hybrid courts and tribunals as 
well as domestic war crimes units. Operating in active conflict zones, 
CIJA's 130 personnel collect evidence, ensure its safe storage, and 
undertake legal analysis with a view to preparing trial-ready case 
files for present-day and future criminal prosecutions in domestic and 
international jurisdictions. The fact that CIJA does this work as a 
non-governmental organization, as opposed to a domestic or 
international legal authority, is truly unprecedented.
    With respect to our evidence collection, I would like to emphasize 
that our analytical interest extends beyond merely documenting the 
crimes themselves, something the UN Commissions of Inquiry and a number 
of human rights NGOs already do very well. Rather, CIJA's focus is on 
collecting, corroborating, and storing ``linkage evidence,'' which is 
information that ``links'' superiors, national leaders and remote 
organizers of atrocities to the atrocity crimes committed on the 
ground.
    This ``linkage evidence'' is the most pivotal part of an atrocity 
crimes investigation, and as any good prosecutor or criminal 
investigator knows, criminal investigations done contemporaneously with 
the criminal acts are essential to ensuring later accountability. 
Otherwise, as we have seen in the past, evidence is lost and those 
responsible for these mass human rights violations go unpunished, able 
to commit more crimes and create more instability in the current or 
future conflicts. Whether in Syria, Iraq or beyond, the goal of this 
work is to prevent such mistakes from reoccurring once accountability 
mechanisms are in place--be it in the short term or in the next ten 
years.
    However, it should be made clear that accountability options exist 
today and they do not require the establishment of an international 
court or tribunal to have impact. Evidence collected today is key to 
facilitating present-day accountability efforts in national 
jurisdictions where perpetrators can be prosecuted without the need for 
an international justice mechanism. For instance, CIJA currently 
assists various countries in their domestic prosecutions of regime 
officials found in their jurisdictions, Islamic State foreign fighters 
returning home, and other members of extremist groups who have been 
apprehended.
    This assistance takes various forms.
    In Syria, CIJA has roughly 40 investigators on the ground, handling 
multiple operations throughout the country. The primary mission of 
these investigators is to collect voluminous amounts of evidence on the 
Assad regime for later exploitation for evidentiary and legal analysis 
at CIJA's headquarters. To date, this operation has resulted in the 
accumulation and safe storage of over 600,000 pages of regime 
documentation, including a significant amount of regime military and 
security intelligence records, all while ensuring chain of custody to a 
criminal law standard.
    With this wealth of information, CIJA has been able to create a 
names database of over one million regime officials--including 
individuals from the highest to lowest levels of its military, security 
intelligence, and political bodies. This type of database has long-term 
potential as an information resource for countries, such as the United 
States, in support of their criminal accountability, immigration, and 
targeted sanctions efforts as well as future state-building and 
lustration efforts.
    This evidence is the basis for multiple ``pre-trial'' legal case 
files, developed by CIJA's legal team, which a domestic or 
international prosecutor could present to judges before trial. For 
example, the first three case files contain evidence against twenty-
five high-ranking Assad regime officials--including President Assad, 
himself--establishing the role of these governmental officials in the 
mass torture, the likes of which the House of Representatives saw in 
the aforementioned Caesar testimony.
    In Iraq, CIJA works according to a memorandum of understanding with 
the Kurdistan Regional Government that provides us with logistical and 
security support as well as human resources. Approximately 20 CIJA 
personnel are currently deployed in Iraq, with teams in three different 
locations. CIJA's work in Iraq focuses squarely on atrocities 
perpetuated by the Islamic State, including those against ethnic 
Yazidis, Christians, and other minority groups in the Ninevah 
Governorate. In its first Iraq-oriented case file, CIJA identified two 
dozen suspects involved in orchestrating Islamic State slavery 
operations that resulted in appalling rates of sexual violence and 
servitude, primarily against minority women and girls.
    Again, the brave victims who have spoken out, as well as the work 
of NGOs and UN reports, have highlighted the plight of these women and 
girls. Through our work, we have established the patterns of these 
crimes and, in turn, have identified a number of responsible 
individuals. In addition to the abovementioned file, CIJA continues to 
build a number of legal dossiers against Islamic State fighters and 
senior leaders behind these atrocities.
    In sum, the six case files completed by CIJA to date identify over 
60 individual perpetrators, reaching up the hierarchy of the Syrian 
regime and the Islamic State, who are responsible for a wide array of 
atrocity crimes. Of course, many more individuals are responsible for 
crimes in the region, and CIJA continues to investigate and build case 
files to address ongoing atrocities. However, the number of suspects in 
our legal briefs is already too high to be addressed by the ICC, even 
in the case of the referral of both Syria and Iraq. Indeed, prosecuting 
such cases would keep any future ad hoc or hybrid court busy for many 
years.
    I will now refer to a few, key recommendations for incorporating 
individual criminal accountability within the international, as well as 
the U.S., agenda on Syria and Iraq.

Recommendation #1--Support atrocity accountability efforts despite the 
lack of an international court with criminal jurisdiction in Syria or 
Iraq.

    With intervention by the ICC or any other international tribunal 
for Syrian and Iraqi atrocity crimes still unlikely, many question the 
point of criminal accountability work today. Examples from the past 25 
years demonstrate that even in conflicts where accountability is not 
addressed during the conflict, discussions often turn to justice soon 
after a return to peace. Preparing for that possibility today, before 
evidence is destroyed or made otherwise unavailable, is key to ensure 
these future efforts are successful.
    There is no need to wait for an international court of tribunal, 
however. There are criminal accountability options available, which 
should be utilized today. At CIJA, for example, we receive a dozen 
requests for assistance each month from war crimes, counter-terrorism, 
and immigration authorities throughout Europe. While the Syrian 
conflict continues, these efforts constitute a credible recourse to 
criminal accountability and, indeed, demonstrate to Syrians and the 
world that perpetrators found in European and North American 
jurisdictions will be prosecuted for their crimes.

Recommendation #2--Support the creation of competent local courts to 
try atrocity crimes based on already collected evidence demonstrating 
the culpability of individuals for these crimes.

    In addition to accountability in European and North American 
criminal courts, there is an even more immediate road to justice in 
Iraq. A number of high-ranking IS officials could be put on trial in a 
specially equipped court in Erbil, the Kurdistan Region of Iraq (KRI). 
An Iraqi chamber would hear complex cases against members of the 
Islamic State, applying the Iraqi penal code. With the assistance of 
international experts and professionals, such a chamber would be 
mandated to hear those cases in line with the highest international 
standards of fair trial and due process.
    Placing the court in KRI would ensure security guarantees which 
cannot be currently replicated in Baghdad while at the same time 
provide an opportunity to hear sexual enslavement of Yazidis cases in 
the vicinity where those atrocities took place, closer to the victims' 
home, and where most of the perpetrators are currently held and likely 
to be in the future. Such a chamber could be established swiftly and 
efficiently, at minimal cost. What is more, depending on the changing 
security situation, the court could be replicated in other Iraqi 
cities.
    Based on our experience on the ground, based on interviews with a 
wide swath of affected groups, the majority want legitimate criminal 
justice, whether in an international or domestic court, or both. After 
enduring shocking atrocities, these groups are eager to cooperate and 
await a judicial forum to do so.
    CIJA's proposal has already garnered support from the Kurdistan 
Regional Government (KRG), and it is possible that similar support may 
come from Baghdad soon. We are currently engaged in discussions with 
the KRG on training their judges, prosecutors, attorneys, and other 
relevant professionals to get this chamber up and running. In sum, all 
elements are in place to start the prosecution of IS members in a 
competent court of law.

Recommendation #3--Support criminal investigations to ensure that 
individual criminal accountability for atrocity crimes and all of its 
attendant benefits that flow from it can be realized.

    Congress's clear intent in the Iraq and Syria Genocide Relief and 
Accountability Act of 2016 is to hold individuals, whether from the 
Assad regime, the Islamic State, or other parties to atrocities in 
Syria and Iraq, criminally responsible for atrocity crimes. This intent 
is reflected not only in this bill, but in many resolutions passed over 
the past five years. Yet, to effectuate this intent, criminal 
investigations into these atrocity crimes must be supported and 
bolstered.
    The atrocities are unfortunately not waning, but expanding. As Mr. 
Chairman, Mr. Co-Chairman, and each Commissioner have seen for 
themselves, before this most recent ceasefire, the Assad regime has 
continued its use of barrel bombs, and a retreating Islamic State has 
left behind more mass graves than previously thought. Collecting 
evidence, storing, analyzing, and preparing it for trial, and doing all 
of the above to the highest international standard available, is 
essential to present day and future accountability aspirations.
    No matter how critical, the above efforts require further support. 
Some of the U.S.'s closest allies have helped make these atrocity crime 
investigations a reality, because they see the present-day and future 
benefits. Canada and Germany, in particular, were the first to support 
efforts to ensure accountability for Islamic State crimes in Iraq.
    One such tangible benefit is the bolstering of the overall rule of 
law capacity in Syria and Iraq. Training and mentoring Syrian, Iraqi, 
and other regional investigators, lawyers, and analysts to do atrocity 
crime work today will have a significant impact on the quality of 
justice tomorrow. With a view to a post-conflict scenario, sustained 
capacity-building support in both countries will not only reinforce the 
legitimacy and efficacy of whatever existing or new international 
tribunal is bestowed jurisdiction, but it will also be an investment in 
the long-term establishment of the rule of law in a future Syria and 
Iraq.

Recommendation #4--Unwavering support of individual criminal 
responsibility for atrocity crimes, regardless of policy complications, 
is the most proven way of establishing durable peace and security. 
Otherwise, the risk of future atrocities and destabilization increases 
greatly.

    Why does atrocity accountability and criminal justice in Syria and 
Iraq matter to the United States and, more importantly, to its 
interests in the region? As Dr. Martin Luther King, Jr., proclaimed, 
and is now inscribed in marble just down the street from here at his 
national memorial, ``[t]rue peace is not merely the absence of tension; 
it is the presence of justice.'' Dr. King's words echoed those of the 
American founders who, likewise, knew that a properly developed society 
does not rest solely on security, but on a rule of law that applies to 
all equally regardless 
of stature.
    For the violence to end, but more importantly for Syria and Iraq to 
evolve into stable, peaceful, and just societies, it is simply not 
enough to broker a political settlement to the Syrian civil war, nor to 
defeat the Islamic State and reclaim the territory it has taken in Iraq 
and Syria. Assad regime leaders and Islamic State fundamentalists must 
face a court of law, confront credible evidence of their criminality, 
and if proven beyond a reasonable doubt, found guilty. These trials 
have the power to serve as tangible examples to all in the region that 
the rule of law is here, and here to stay.
    Without actual and symbolic justice, the seeds of future conflict, 
cataclysmic destabilization, unprecedented human displacement, and 
militant terrorism lay undisturbed and ready to grow. These 
considerations may sound like lofty ideals, but the United States 
serves as the best example that respect for the rule of law and human 
rights results in a thriving, stable, and just society. The same 
principles undoubtedly apply elsewhere.

Recommendation #5--Ensuring individual responsibility for atrocity 
crimes is an untapped resource for Countering Violent Extremism efforts 
that will help tilt public relations power away from militant extremist 
groups like the Islamic State.

    Holding militant extremists criminally responsible for atrocity 
crimes is drastically underutilized as a Countering Violent Extremism 
(CVE) tool, and this Act will help reverse this trend. To explain, for 
the U.S. and its allies to better serve its interest in stamping out 
violent extremism--whether in the form of Islamic State or other like 
groups--governments must broaden their conception and use of the rule 
of law. Currently, the vast majority of militant radicals are 
prosecuted under terrorism laws, often for material support to 
terrorism. An unintended consequence of prosecution under these laws is 
that it sends the message to vulnerable youth--in particular Muslim 
males--that the ``West'' labels them as ``terrorists.'' In turn, 
fundamentalist enablers are empowered to push the ``clash of cultures'' 
narrative.
    An alternative to the above is to support and complement anti-
terrorism laws with domestic and international mechanisms devised to 
prosecute members of militant groups, such as the Islamic State, as 
murders, torturers, rapists, slavers, war criminals, or even 
genocidaires. With these individuals seen as criminals of epic 
proportion, vulnerable youth will be far less likely to see them as 
``defenders of the Muslim faith,'' but rather those who twist Islam for 
criminal ends. Prosecution of these individuals as atrocity criminals 
provide fact-based counter-messaging to the ``clash of civilizations'' 
narrative that is currently so effective. With access to quality 
evidence of these specific crimes, such prosecutions before more 
effective and more likely.
    In summation, please let me conclude with the statement that this 
Act is emblematic of some of the United States' best values: adherence 
to the rule of law, the protection of human rights, and the delivery of 
humanitarian assistance. These values underpin a just and peaceful 
society, especially those trying to transition out of the throes of 
chaos and tragedy. It is for these and other reasons that CIJA and a 
broad range of humanitarian organizations, including faith-based 
groups, support the prompt passage of this legislation. Thank you.


                     Overview of Support Recieved by CIJA From Individual Donors (2013-2016)
----------------------------------------------------------------------------------------------------------------
                              Activities                        Total Financial Support  Total Financial Support
          Donor                Financed       Period Financed            (EUR)                    (USD)
----------------------------------------------------------------------------------------------------------------
United Kingdom (FCO)      Syria              2013-2017          GBP 4,401,023            USD 6,672,238
----------------------------------------------------------------------------------------------------------------
European Union            Syria              2013-2017          EUR 4,999,830            USD 5,949,329
----------------------------------------------------------------------------------------------------------------
Canada                    Syria/Iraq         2015-2018          CAD 4,918,104            USD 3,810,918
----------------------------------------------------------------------------------------------------------------
Denmark                   Syria              2014-2016          DKK 10,103,513           USD 1,643,392
----------------------------------------------------------------------------------------------------------------
Norway                    Syria/Iraq         2014-2016          NOK 9,900,000            USD 1,575,258
----------------------------------------------------------------------------------------------------------------
Germany                   Syria/Iraq         2014-2016          EUR 1,130,771            USD 1,355,797
----------------------------------------------------------------------------------------------------------------
IREX                      Syria              2013-2014          USD 777,225              USD 777,226
----------------------------------------------------------------------------------------------------------------
Switzerland               Syria/Iraq         2014-2016          EUR 286,900              USD 350,521
----------------------------------------------------------------------------------------------------------------

Prepared Statement of Ambassador David Scheffer, Mayer Brown/Robert A. 
   Helman Professor of Law; Director, Center for International Human 
         Rights, Northwestern University Pritzker School of Law

    Mr. Chairman and distinguished members of the Commission on 
Security and Cooperation in Europe: I am pleased to testify in support 
of the Iraq and Syria Genocide Relief and Accountability Act of 2016 
(H.R. 5961), which Helsinki Commission Chairman Chris Smith has 
introduced and of which Representatives Anna Eshoo, Trent Franks, and 
Jeff Fortenberry are original co-sponsors. I do so as a law professor 
at Northwestern University Pritzker School of Law, as the former U.S. 
Ambassador at Large for War Crimes Issues (1997-2001), and as the Chair 
of the American Bar Association Working Group on Crimes Against 
Humanity, which has been examining options for legislation to 
incorporate crimes against humanity in the federal criminal code. Since 
January 2012 I also have been the U.N. Secretary-
General's Special Expert on U.N. Assistance to the Khmer Rouge Trials. 
However, the views I express here today are my personal views and do 
not necessarily reflect the position of any institution to which I am 
associated.
    H.R. 5961 demonstrates an undeniable logic: The survivors of 
genocide, crimes against humanity, and war crimes (which many sources, 
including the United Nations, non-governmental organizations, and I 
collectively describe as ``atrocity crimes'') in Iraq and Syria merit 
the fullest possible assistance of our government, including 
consideration for admission of victim refugees to the United States. 
The further logic is that the perpetrators of the atrocity crimes not 
only in Iraq and Syria but elsewhere in the world should be subject to 
investigation and prosecution under Title 18 if federal jurisdiction 
reaches them. The crime of genocide and war crimes already can be 
prosecuted, under certain conditions, against not only Americans but 
also aliens. (The War Crimes Act of 1996, as amended, does not cover 
aliens who commit war crimes outside the United States and where there 
are no American victims. Thus, such individuals also could find 
sanctuary in the United States.)
    However, much more work is required to modernize the federal 
criminal code to ensure that perpetrators of crimes against humanity do 
not find sanctuary from prosecution in the United States. Currently, 
perpetrators of crimes against humanity and war crimes under certain 
circumstances theoretically can live freely in the United States 
provided they are admitted on immigrant or non-immigrant visas, either 
under false representation to immigration authorities or because our 
law does not yet criminalize their particular atrocity crime and does 
not even ask relevant questions in immigration procedures. H.R. 5961 
would go a long way to address this void in our federal code.
    Section 4(c) of the bill requires the Attorney General, in 
consultation with the Secretary of State, to conduct a review of 
existing criminal statutes concerning atrocity crimes to determine the 
extent of federal jurisdiction over perpetrators with at least one of 
several connections to the United States, to determine what statutes 
currently provide for extraterritorial jurisdiction of crimes against 
humanity or war crimes, and to assess how the absence of criminal 
statutes impede the prosecution of such crimes, including if the 
perpetrator is captured by U.S. military forces outside the United 
States and foreign prosecution is unavailable. The Attorney General's 
review will discover that federal jurisdiction over crimes against 
humanity and war crimes (under certain circumstances) remains non-
existent or very limited.
    But H.R. 5961, if enacted, will undertake reviews that confirm the 
reality of limited federal jurisdiction and lead, I hope, to additional 
legislation to cover egregious voids and gaps in the federal criminal 
code. It is a raw fact, for example, that the United States is 
currently a sanctuary for alien perpetrators of crimes against humanity 
or certain war crimes who are fleeing the reach of the law overseas but 
who might be subject, at most, to deportation for immigration fraud in 
the United States. Even then, such deportation might not be to a 
foreign court for purposes of prosecution but rather simply to live, 
prosper, and pose a continuing risk elsewhere and perhaps to the 
national security of the United States and its interests abroad. I 
attach to this testimony two lists of cases under federal law that 
focus on immigration fraud, typically with the penalty of deportation, 
even though the immigrant was allegedly involved in atrocity crimes or 
other serious human rights abuses.
    While their number is unknown, there probably are individuals who 
committed atrocity crimes overseas and have yet to be discovered 
currently residing in the United States. If they are tracked down, the 
result should be something more than the possibility of mere 
deportation. With new statutes criminalizing such conduct, the United 
States, under the rule of double criminality, would be more easily able 
to extradite such aliens to foreign jurisdictions that have similar 
laws and could prosecute them in their own courts. Our mutual legal 
assistance treaties also would be more potent instruments of 
international cooperation. In any event, the United States should deter 
their arrival in the first place with tough criminal penalties for 
alien perpetrators of crimes against humanity or certain war crimes who 
are plotting to arrive in the United States to reside or otherwise take 
advantage of immigration privileges without fear of prosecution.
    H.R. 5961 requires answers as to the state of current federal law; 
it mandates the Attorney General to determine additional statutory 
authorities necessary to prosecute a United States person or a foreign 
person within the territory of the United States for atrocity crimes. 
Title 18 of the U.S. Code desperately requires such review by the 
Attorney General, an endeavor that I am confident will recommend a 
statute to fill the void to cover, at a minimum, crimes against 
humanity. The critical first step in achieving that end is H.R. 5961.
    I recommend, however, that the statute include a defined term of 
``atrocity crimes'' that describes the collective body of genocide, 
crimes against humanity, and war crimes. This would ease repeated 
reference to that set of crimes in the statutory language and make the 
terminology more accessible to the media and the general public.
    Finally, there is a focused effort within the Iraq and Syria 
Genocide Relief and Accountability Act to provide necessary support to 
track individuals suspected of committing atrocity crimes in Iraq since 
January 2014 or Syria since March 2011 and to preserve the chain of 
evidence for prosecution of these individuals in domestic courts, 
hybrid courts, and internationalized domestic courts. Such judicial 
endeavors may not materialize for years, but it is imperative now to 
support current and future efforts to track suspects and gather 
evidence competently and professionally as it is discovered on the 
battlefield and elsewhere. The bill also would strengthen the 
government's efforts to identify and assist members of religious or 
ethnic groups under threat of atrocity crimes in Iraq or Syria. In this 
regard, I commend the work of my fellow panelist Chris Engels and that 
of his colleagues at the Commission for International Justice and 
Accountability, and urge the U.S. Government to join with them to 
ensure accountability for atrocity crimes.
    These would be major preventive steps, first by supporting criminal 
investigations to bring war criminals to justice, thus undermining 
their influence and participation in atrocity crimes, and second by 
mitigating the risks of forced migration. While we should recognize 
that the United States and other governments have significantly shared 
in and continue to undertake the massive challenge of refugee relief, 
the United States Government would, under the guidance of H.R. 5961, 
take extraordinary steps to respond to both the refugee and 
accountability crises presented by the recent situations in Iraq and 
Syria.
    Thank you for this opportunity to testify before the Commission on 
Security and Cooperation in Europe.

   Prepared Statement of Stephen M. Rasche, Esq., Legal Counsel and 
Director of IDP Resettlement Programs, Chaldean Catholic Archdiocese of 
                     Erbil, Kurdistan Region, Iraq

I. Introduction and Background.

    Thank you Mr. Chairman and members of the Commission for allowing 
me to speak to you on behalf of the persecuted Christians of Northern 
Iraq.
    My name is Stephen Rasche, and I presently reside in Erbil, capital 
of the Kurdistan Region of Iraq, and home to what is presently the last 
viable Christian community in Iraq. In Erbil I serve on the staff of 
Chaldean Catholic Archdiocese of Erbil. Within that context I serve as 
legal counsel for external affairs, Director of IDP Resettlement 
Programs, and Vice Chancellor of the Catholic University in Erbil.
    As brief background, the Christian population of Iraq, over 1.5 
million in 2003, now numbers barely over 200,000. Over 100,000 of these 
live in the greater Erbil region. Of those in the greater Erbil region, 
some 10,500 families are IDPs (internally displaced persons), numbering 
approximately 70,000 people.
    In August of 2014, when ISIS took control of Nineveh Plain, the 
IDPs of Nineveh and Mosul largely fled to the Erbil region. This 
included over 12,000 Christian families. There in Erbil, in the early 
absence of any meaningful institutional humanitarian aid, the Kurdistan 
Regional Government assigned overall responsibility for Christian IDPs 
to the Chaldean Catholic Archdiocese. The reasoning behind this was 
that the Chaldean Archdiocese was the largest existing Diocese in Erbil 
for which its leader (Archbishop Bashar Warda) was also based in Erbil, 
and not an IDP himself, which was the case for the other major 
Christian churches. A part of this responsibility required that the 
Chaldean Archdiocese properly coordinated relief efforts with all other 
Christian Churches.
    Having accepted this responsibility, and in coordination with the 
other Christian churches of the region, the Chaldean Archdiocese set 
about the immediate development of a humanitarian aid operation using 
the combined staffs of the churches. This effort relied on the private 
assistance of Christian aid organizations from around the world, which 
provided critical support in the immediate aftermath of the crisis, and 
have continued to do so to this day.
    In the following months, IDPs were first placed in tents and 
unfinished buildings, then into Caravans (construction trailers) in 
camp settings, and most recently, for some fortunate families, into 
group homes rented by the Archdiocese through our rental assistance 
program. Additionally, some families had moved into group homes early 
on, and these families all received rental assistance from the 
Archdiocese as well. Also during this time some 13 schools and five 
medical clinics were established, along with monthly food package 
programs, all privately funded, to serve the needs of IDPs.
    We are serving the various needs of approximately 10,500 Christian 
IDP families. (Two thousand of the 12,000 Christian IDP families who 
fled ISIS into Northern Iraq subsequently left the area.) Within this 
overall number of families of assisted, nearly 6,000 families are 
presently receiving housing rental assistance, at a total cost of 
approximately $650,000 per month. Our food package program serves over 
10,000 families at a cost of approximately $720,000 per month, and our 
medical clinics serve over 6,000 families, at a total cost of 
approximately $80,000 per month inclusive of all medicines.
    While our responsibility lies primarily with service to the 
Christian IDPs, we have regularly extended care to non-Christians as 
well. Our schools and medical clinics serve Yazidi and Muslim IDPs, and 
our food and housing rental programs include many Yazidi families.
    It is noteworthy to point out the coexistence of the Yazidi and 
Christian IDPs, many of which fled their homes together as groups and 
have continued to live together in these same groups within the IDP 
centers. While the management of these IDP centers rests with us as 
Christians, the care of the Yazidis in our centers is identical to that 
being provided to the Christians.
    All of this has been done exclusively through private aid, which to 
date totals approximately $26,000,000. Our largest donors include the 
EU based Aid to the Church in Need, the Knights of Columbus, the US 
based Nazarene Fund, The Italian Episcopal Conference, The Chaldean 
Churches of the USA, and Caritas of Italy. There are many other private 
donors, all of which can be found in reports previously submitted to 
the office of Congressman Smith.
    It is no exaggeration to say that without these private donors, the 
situation for Christians in Northern Iraq would have collapsed, and the 
vast majority of these families would without question have already 
joined the refugee diaspora now destabilizing the Middle East and 
Europe.
    We say this because throughout this entire period of crisis, since 
August 2014, other than initial supplies of tents and tarps, the 
Christian community in Iraq has received nothing in aid from any US aid 
agencies or the UN. The reason for this rests in the ``Individual 
Needs'' Policy adhered to by the US government and the UN, as well as 
other US backed aid agencies.
    Essentially, when we have approached any of these entities 
regarding the provision of aid assistance to the Christians of Northern 
Iraq, we have been told that we have done too well in our private 
efforts, and that the standards we have provided for our people, bare 
as they are, exceed the minimum individual needs standards currently 
existing for those agencies.
    Additionally, we are advised that any Christian IDPs who would 
choose to seek refuge in existing UN camps could receive aid there if 
they applied. However, even UN representatives themselves privately 
admit that the Christians would be under real threat of additional 
violence and persecution within the Muslim majority camps. In any case, 
given the recent history, there are no Christians who will enter the UN 
camps for fear of violence against them.

II. Issues for Consideration.

    With this all as background, as the time of forced displacement is 
now over two years, our private donors are running out of ability to 
sustain our current level of care. This brings us to two critical 
points to share with this Commission.

    1. Standard of Care Requirements in Context. While the standard of 
care being received by Christians may marginally exceed that being 
provided elsewhere by the UN and similar organizations, there are no 
other IDP groups in Iraq that face the immediate existential threat now 
being faced by the Christians. This level of care, which we have 
provided exclusively through private funding, is the only thing, other 
than their deep Christian faith, which has given these IDPs continued 
hope and incentive to stay in the region until they may eventually 
return to their original homes, or set up new lives inside the 
Kurdistan Region. Simply put, absent this minimal care, the few 
remaining Christians of Iraq would largely scatter into the diaspora 
and disappear for good from their ancestral homes.

12. Adherence to Individual Needs vs. Extinction of a People. From a 
moral standpoint, we ask you to consider that the uniquely perilous 
status of the Christian community requires that they be viewed not as 
individuals, using the standard ``Individual Needs'' policy assessment, 
but rather as a group, threatened with extinction as a people, the 
victims of genocide and a cycle of historical violence which seeks to 
remove them permanently from their ancestral homes. While not 
discounting the very real hardship being faced by other IDP groups, it 
is the Christians in particular who face the real and immediate threat 
of extinction in Iraq.

III. Specific Requests.

    As we near the beginning of the expected liberation of Mosul and 
the Nineveh Plain, we request that Commissioners consider supporting 
the allocation of $9,000,000 in direct aid specifically designated to 
supporting the existing humanitarian and educational aid programs of 
the remaining Christians of Northern Iraq. This amount would allow for 
continuation of the existing housing, medical, food, and educational 
programs for an additional six months, by which time expected events in 
the region would allow for an informed reassessment.
    While understanding there may be legal constraints of the US 
Government regarding recipients of US backed aid, we would request that 
the ultimate use and implementation of any such aid be managed through 
our existing system, which is already thoroughly integrated into the 
Christian community. This could readily be done under proper oversight 
from an approved distributor of US government aid, and we stand by 
ready to work in good faith with any such partner. Our existing aid 
donors regularly audit our use of funds, and we are thoroughly familiar 
and capable in this regard.
    Provision of this aid would not completely end the ongoing support 
from our existing private donors. Rather, with basic needs now being 
met largely through established governmental aid, it would allow for 
our decreasing private funds to be utilized for urgently needed 
reconstruction and rehabilitation efforts. Thus the support of US 
humanitarian aid would greatly leverage and increase the effectiveness 
of the remaining private aid.

III. Closing Comments.

    Members of the Commission, within our small group in Erbil, every 
morning we wake up and rob six Peters to pay twelve Pauls. And every 
night we pray that we will be given the strength and the financial help 
from somewhere to get us through the next day. We have been doing this 
for two years now. We are doubtful that we can sustain things much 
further under our present limitations. Our private donors are reaching 
their breaking point, and we feel it, as do the tens of thousands of 
people who are in our care.
    And yet, these next twelve months remain perhaps the most critical 
of all for us. If the efforts and sacrifices made to remove the evil of 
ISIS from Northern Iraq are to have a purpose, and if the rightful 
designation of genocide is to have a purpose as well, it is critical 
that the remaining Christians receive, and receive now, the direct 
support necessary to remain in place as a viable community. How utterly 
tragic would it be, that the established governmental aid community 
allowed these persecuted people, so vital as bridge builders in any 
peace and reconciliation process, to disappear just as we reached the 
time wherein a rebirth was within sight.
    I thank you for your time and for your continued efforts.

     Prepared Statement of William Canny, Executive Director, U.S. 
     Conference of Catholic Bishops' Migration and Refugee Services

    I am Bill Canny, the Executive Director of the United States 
Conference of Catholic Bishops' Migration and Refugee Services (USCCB/
MRS). I am grateful for this opportunity to testify before the Helsinki 
Commission--grateful to Representative Christopher H. Smith (R-NJ), 
Chair, and Senator Roger F. Wicker (R-MS), Co-Chair, and also Ranking 
Members Representative Alcee L. Hastings (D-FL) and Senator Benjamin L. 
Cardin (D-MD), and all the Commission members.
    USCCB welcomes the introduction of H.R. 5961, the bi-partisan Iraq 
and Syria Genocide Relief and Accountability Act, sponsored by Chairman 
Smith. We appreciate this opportunity to share our thoughts and ideas 
about the bill, as well as share other recommendations to protect those 
fleeing atrocities in Syria and Iraq.
    The work of the U.S. Catholic Bishops' Committee on Migration is 
carried out by USCCB's Migration and Refugee Services (USCCB/MRS), 
which is the largest U.S. refugee resettlement agency, resettling about 
one quarter of the refugees each year. MRS works with over 100 Catholic 
Charities offices across the United States to welcome and serve not 
only refugees but also unaccompanied refugee and migrant children, 
victims of human trafficking, survivors of torture, and other at-risk 
migrants.
    The U.S. Catholic Church also relates closely with the Catholic 
Church in countries throughout the world, where our worldwide Catholic 
communion serves the needs of the most marginalized regardless of 
nationality, ethnicity, race, or religious affiliation. We serve many 
refugees, internally displaced persons, and many refugee host 
communities straining under the large numbers of people fleeing 
persecution and war. The Church's deep experience in combating poverty 
and forced migration and their root causes in the Middle East and 
throughout the world also includes the work of, among others, Catholic 
Relief Services (CRS), the official overseas relief and development 
agency of the U.S. Catholic bishops, and the Geneva-based, 
International Catholic Migration Commission (ICMC).
    The level of loss, displacement, and human suffering is staggering 
in this conflict. \1\ Over 10.9 million Syrians have been forcibly 
displaced--6.1 million as internally displaced people (IDPs) inside the 
country and 4.8 million as refugees who have fled to neighboring 
countries. Over half of the refugees are under the age of 18 and over 
35 percent are under the age of 12. Over 3.5 million Iraqis have been 
forcibly displaced--3.3 million as IDPs inside the country and a 
conservative estimate of 233,000 Iraqis as refugees in neighboring 
countries.
---------------------------------------------------------------------------
    \1\  Statistics in this paragraph are from the following sources: 
UNOCHA, Iraq: A Worsening Humanitarian Crisis, July 31, 2016 (number of 
Iraqi IDPs); UNHCR, Iraq: Mosul Situation Flash Update, July 31, 2016 
(number of Iraqi refugees in seven neighboring countries); UNOCHA, 
Syrian Arab Republic: An Overview, September 2016 (number of IDPs, 
refugees, under 17, under 12).
---------------------------------------------------------------------------
    As the March 17, 2016 statement of Secretary of State Kerry 
detailed and you indicated in the Act's findings, many of the people 
are forced to flee due to atrocities. This includes ISIS's genocidal 
actions against Christians, Yazidis, and Shia Muslim, and the crimes 
against humanity and war crimes perpetrated by ISIS or the Syrian 
government against the Sunni majority, or the Kurds, and other ethnic 
minorities. Genocide Against Christians in the Middle East, March 16, 
2016, coauthored by the Knights of Columbus and In Defense of 
Christians, details further persecution that Christians have suffered 
in the region.
    USCCB shares this deep concern for Syrian and Iraqi victims of 
atrocities. USCCB's Committee on International Justice and Peace, and 
its Committee on Migration have made numerous, recent missions to the 
region and written two assessment and solidarity reports about the 
plight of refugees in the region. \2\
---------------------------------------------------------------------------
    \2\  USCCB/MRS, Mission to the Middle East: A Report of the U.S. 
Conference of Catholic Bishops on Syrian Refugees, 2012; and USCCB/MRS, 
Refuge and Hope in the Time of ISIS: The Urgent Need for Protection, 
Humanitarian Support, and Durable Solutions in Turkey, Bulgaria, and 
Greece, 2015.
---------------------------------------------------------------------------
    In our most recent report in 2015, the delegation described 
arriving in southern Turkey as some 130,000 Kurds, an ethnic minority 
in Syria, were forced over the course of a weekend to seek refuge in 
Turkey as ISIS devastated their city of Kobane.
    As the trip continued, the USCCB delegation met a growing number of 
religious minorities, including Christians, Yazidis, and Shia Muslims. 
The delegation met a Syrian Christian in his 20s, newly converted to 
Christianity, who boldly shared his faith with the arriving ISIS 
fighters to his village. Surprised that they let him go, he went home 
to the family home several hours later to find his parents and siblings 
slaughtered by ISIS. At Sunday Mass in Istanbul, we met with a church 
full of Iraqi Christian villagers who had fled en masse from ISIS. One 
of the village leaders had stood up to ISIS. The next morning the 
villagers found the leader's severed head on his doorstep.
    Based on what we continue to see and hear from the region, we are 
urging the U.S. government and the international community to help 
address the root causes of this gruesome conflict, the root causes of 
the forced migration, and to help build an inclusive society so that 
those forced to flee, regardless of religion or ethnicity, would be 
able to make a safe, humane, voluntary return at the end of the 
conflict, including Christians and other religious and ethnic 
minorities. At the same time, we urge the United States and 
international community to continue to protect and support internally 
displaced people and refugees from Syrian and Iraq, and also to support 
and keep stable the neighboring countries that host most of them. As is 
the case for most refugees, such return is the first choice and option 
most viable for most refugees. Meanwhile, for some refugees--because of 
their vulnerability, the trauma they experienced, or their need for 
family reunification--waiting for return is not viable. There are a 
number of options available to the United States and other nations to 
help alleviate the suffering of these most vulnerable within already 
vulnerable refugee populations. One of those options is to offer 
resettlement in the United States to a relatively small number of them.
    Some of the most vulnerable include majority Sunni from Syria, as 
well as religious minorities in Syria, such as Christians, Shia, 
Yazidi, and others who are in grave danger there because of their 
religious beliefs. We have urged the United States and other concerned 
countries, as well as countries in the region, to do more to protect 
them and others who are facing persecution at the hands of both state 
actors and non-state actors.
    We are pleased that the United States has resettled more than 
10,000 Syrian refugees in the current fiscal year. Indeed, while we are 
pleased at the increased number of Syrian refugees who have been 
offered protection in the United States over the last year, we believe 
that the United States has the capacity to admit and resettle even more 
than that number in the coming fiscal year, and we stand ready to work 
with the Administration, Congress, and local communities in achieving 
that end.
    However, we are gravely concerned by the small number of religious 
minorities who have been resettled in the United States during the 
current fiscal year. For example, only .53 percent of Syrians resettled 
this year in the United States have been Christians, down from 1.7 
percent last year. Last year's number was close to being in line with 
the percentage of Christians among all the Syrians registered as 
refugees, which was around 2 percent. It is unclear at the time of this 
writing precisely why the percentage of Syrian Christians, who have 
been registered as refugees or resettled in the United States as 
refugees, is so low. More needs to be done to assess why this is so and 
then to address it. It is clear, however, that Christians and other 
religious minorities have become a target for brutality at the hands of 
the non-state actor ISIS, and that they are fleeing for their lives, 
and that far too few of them have been attaining U.S. resettlement.
    We commend H.R. 5961 for recognizing the plight of Christians and 
other religious minorities and taking steps to improve their access to 
the U.S. refugee admissions program. We have some questions about 
whether the bill's provision amending Section 599D of the Foreign 
Operations, Export Financing, and Related Programs Appropriations Act, 
1990 is the right approach and respectfully suggest that creating a new 
Priority 2 (P-2) classification in the U.S. refugee admissions 
program's priority system for religious and ethnic minority victims of 
genocide could more effectively achieve the laudable goals of this 
legislation. We believe that a P-2 designation would increase the 
access that Christians and other religious minorities have to the U.S. 
refugee admissions program, and we support the inclusion of this 
provision in H.R. 5961. While supporting this effort to increase access 
for religious and ethnic minorities to resettlement, we also encourage 
that all the most vulnerable refugees in Syria and Iraq continue to 
have access to resettlement as well.
    In March 2016, you, Chairman Smith, and others were instrumental in 
ensuring the passage of H. Con. Res. 75, the ``Genocide'' resolution 
that drew attention to the atrocities being committed against 
Christians and other religious and ethnic minorities in the Middle 
East, especially in Iraq and Syria. Your bipartisan support on this 
issue complemented Secretary of State John Kerry's March 17 decision to 
declare that Daesh/ISIS was committing genocide against these groups in 
areas under its control.
    Beyond the resettlement solutions for Christians and other 
religious and ethnic minorities, we appreciate that this new 
legislation takes the ``Genocide'' resolution one step further and 
seeks to help those who have been harmed and to hold the perpetrators 
accountable. In particular, it is noteworthy that H.R. 5961 calls for 
assistance for survivors of genocide and allows faith-based 
organizations (such as Catholic Relief Services (CRS) and International 
Catholic Migration Commission (ICMC)), who already have a record of 
providing humanitarian assistance to these populations, to be funded 
for such life-saving work.
    USCCB has consistently raised its voice in support of Christians 
and other religious and ethnic minorities who are facing persecution in 
the Middle East. USCCB has joined with Pope Francis in condemning the 
actions of those who would persecute others solely for reasons of their 
faith and ethnicity. CRS stands ready to provide protection and support 
in the region to IDPs and refugees from Syria and Iraq. USCCB/MRS and 
ICMC stand ready to assist in the resettlement of those most vulnerable 
refugees from Syria and Iraq who are unable to return home, including 
Christians and other religious or ethnic minorities.
    May I again commend you for your efforts to help and support the 
suffering victims of persecution in Iraq and Syria. USCCB looks forward 
to working with you as this legislation proceeds to find the most 
effective way to implement a P-2 and take other measures that assure a 
greater participation in the U.S. resettlement program by Christians 
and other religious and ethnic minorities from Syria and Iraq.
    Thank you.

  Prepared Statement of Carl A. Anderson, Supreme Knight, Knights of 
                                Columbus

    Thank you, Mr. Chairman, and members of the Commission, for this 
opportunity to testify. Congress and the Administration have our 
appreciation for their declarations of genocide that speak on behalf of 
victims, who often feel that the world has forgotten them.
    Mr. Chairman, you, Ms. Eshoo, Mr. Fortenberry and Mr. Franks are to 
be commended for your leadership in introducing H.R. 5961, the Iraq and 
Syria Genocide Relief and Accountability Act. In testimony in May, I 
outlined six principles for averting the extinction of Christians and 
other minorities in the Middle East.
    I am grateful that H.R. 5961 makes progress in all six of these 
areas. Thank you, and be assured of the full support of the Knights of 
Columbus in your work to bring this bill to the President's desk with 
all deliberate speed.
    I would like to speak to you today about three matters.
    First, our government's humanitarian aid bureaucracy is often not 
making aid available to communities that need it most.
    Section 5 of the bill directs the Secretary of State in 
consultation with Administration officials to prioritize relief 
particularly for those groups and individuals targeted for genocide, to 
identify their vulnerabilities, and to work with humanitarian and 
faith-based organizations to address these needs. It seems that it is 
more of a mindset than anything else that has resulted in the need for 
this section.
    Our representatives have met with U.S. and U.N. officials in Iraq 
and in Washington to ask them all the same question: ``Why aren't the 
communities that were victims of this genocide receiving public aid?''
    The main answer has been that the current policy prioritizes 
individual needs but does not consider the needs of vulnerable 
communities--even when they have been targeted for genocide and risk 
disappearing altogether.
    But regardless of the reason, the outcome is the same. Such a 
policy increases the likelihood that the complete eradication of these 
groups from the region--which was the intent of the genocide--will 
succeed.
    We know that many Christian and Yazidi victims of genocide do not 
receive public aid.
    And here we have a fundamental inconsistency in the U.S. stance 
toward the genocide.
    On the one hand we have the unanimous policy of the elected 
branches of the United States government stating that a genocide is 
occurring. On the other hand we have an aid bureaucracy that is 
allowing the intended consequence of the genocide to continue, even 
though it is in our power to stop it.
    Responding to a genocide requires a different approach. 
Fortunately, the bureaucratic roadblocks are mainly cultural, not 
statutory.
    What the bureaucracy needs is an immediate change of mindset. 
Legislation--or the threat of legislation--may be helpful in hastening 
this, but even now, it does not have to be this way.
    As this bill proceeds to a vote, our legislative and executive 
representatives need to deliver to our diplomatic and aid entities a 
clear and simple message:
    In the midst of this genocide, saving Christian--and other 
communities that face extinction--in Iraq and Syria is part of your 
mission. There is nothing unconstitutional, illegal, unethical or 
unprofessional about prioritizing their right to survival as 
communities. They are innocent victims of a genocide. If these victim 
communities are not receiving aid, you are not fulfilling your mission. 
And such action is consistent with the best of American and U.S. State 
Department tradition.
    In fact, exactly a century ago, during and following World War I, 
the United States government helped assist Christians in the region 
with direct aid as they suffered what Pope Francis has called the first 
genocide of the 20th century.
    Chartered by an act of Congress, and recipient of more than $25 
million in direct U.S. government ``supplies, services and cash,'' the 
Near East Relief organization constituted a collaboration of the State 
Department and American religious entities on the ground in the Middle 
East. It is widely credited with having been key in saving religious 
pluralism in the region during and following World War I. And I am 
proud to say that the Knights of Columbus was among the groups that 
supported this humanitarian effort in the 1920s. \1\
---------------------------------------------------------------------------
    \1\  Jay Winter, Ed. America and the Armenian Genocide 195 (2003) 
at https:// books. google. com/ books? id=pnL SRX AXT fcC &lpg= PA198 
&dq= near% 20east %20 relief %2025% 20million &pg =PP1 #v= onepage &q&f 
=false.
---------------------------------------------------------------------------
    The organization sought to save the Christian populations of Iran, 
Iraq, Syria and Armenia from ``immediate and total destruction.'' \2\
---------------------------------------------------------------------------
    \2\  Rev. Joseph Naayem, Shall This Nation Die? xvi (1921) at 
https://books. google.com /books? id=hok GAQAAIAAJ& lpg= PR16& ots= 
1wrLic UlSu &dq =%22 immediate %20and %20total %20destruction %22%20 
mesopotamia &pg= PR3#v= onepage &q= %22immediate% 20and %20total 
%20destruction %22%20 mesopotamia &f= false.
---------------------------------------------------------------------------
    There is no reason that such a prioritization and partnership--
assisted by direct government funding--could not exist today to save 
Yazidis, Christians and other small vulnerable indigenous groups.
    To be clear, we have had the assistance of many people who are 
working within this system and are trying to help, and many officials 
are advocating within their entities for a change in the status quo. 
But they are often limited by a bureaucracy that is resistant to 
initiative and resists change.
    What is lacking may be legislation, but it is also leadership. With 
this bill, Congress is providing leadership--and it is time for the aid 
community to respond. If they do not, the officials from the State 
Department, USAID, and their private partners that have not prioritized 
aid to Christians and Yazidi communities need to continue to hear 
directly from Congress and from the President and from the American 
people that public aid needs to flow to these communities now.
    Second, on the subject of aid I would like to reiterate that, in 
addition to the funds provided in this bill, Congress should explore a 
stand-alone emergency appropriations bill to respond to this genocide 
in an even more direct and comprehensive manner.
    It seems that few situations could be as worthy of such a measure 
as the genocide Congress has declared unanimously to be ongoing.
    My third point is that the aid we provide must be an investment in 
a more peaceful future in the region. This cannot happen unless the 
system of religious apartheid there ends. Christians and other 
religious minorities are entitled to equal rights and the equal 
protection of the laws as enumerated in the Universal Declaration of 
Human Rights. 1A\3\
---------------------------------------------------------------------------
    \3\  Universal Declaration of Human Rights, G.A. Res. 217A, U.N. 
GAOR, 3rd Sess., 1st plen. Mtg., U.N. Doc A/810 (Dec.12, 1948).
---------------------------------------------------------------------------
    Our tax dollars to governments in the region must not be used to 
rebuild a discriminatory system that imposes second-class citizenship 
upon religious minorities. U.S. aid for reconstruction, military and 
other purposes should be contingent on the application of full and 
equal rights of citizenship to every citizen of Iraq and other 
countries in the region, as defined by the Universal Declaration.
    This agenda demands from us a new approach to issues of human 
rights in the region.
    When we here speak of human rights, we are referencing those rights 
enumerated in the Universal Declaration of Human Rights. When 
governments in Muslim-majority countries speak of human rights, they 
may be thinking of those rights as defined--or as confined--by Sharia. 
The interests of the region, and our own interests demand that we not 
mislead ourselves or allow others to mislead us in this regard.
    Our own laws, including the International Religious Freedom Act of 
1998, \4\ recognize these realities, and require our government to act. 
Christians in the region have a natural and universal right to practice 
their faith freely and openly. They must receive protection from civil 
authorities when they do so. They and other minorities must have 
religious freedom. Without it, pluralism will certainly die, and with 
it all hope for stability in the region. If civil authorities in the 
region cannot supply this protection, they are not suitable partners 
for aid.
---------------------------------------------------------------------------
    \4\  International Religious Freedom Act of 1998, 22 USCS 
Sec. Sec.  6401-6481 (2016).
---------------------------------------------------------------------------
    Only with such policies will we be able to break the cycle of 
persecution culminating in genocide which has afflicted these 
communities for far too long, and which threatens international peace 
and security.
    Mr. Chairman, thank you very much for your leadership and that of 
the members of this Commission.

                        M A T E R I A L    F O R

                          T H E    R E C O R D

=======================================================================

       
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
              ``Let Justice Be Served in Syria and Iraq''

          By David Scheffer (Los Angeles Times, July 5, 2014)

    Justice may appear to be the least likely survivor of the conflicts 
in Syria and Iraq, but history teaches us that investigations and 
prosecutions of atrocities like those sweeping through these nations 
can still be achieved despite political obstacles.
    Granted, justice stood still in the U.N. Security Council in late 
May when Russia and China vetoed a resolution referring to the 
International Criminal Court the atrocity crimes that have been tearing 
Syria asunder since March 2011.
    But the cruelty in Syria continues to mount. An estimated 160,000 
citizens have died and half a million civilians have been wounded, with 
tens of thousands constantly subjected to shelling and bombings. There 
are countless torture victims, 2.5 million refugees crowded into 
neighboring countries and 6.5 million internally displaced people.
    In Iraq, the reported summary executions of an estimated 1,700 
Iraqi soldiers in Tikrit by rebel forces known as the Islamic State, 
formerly known as ISIS, and other alleged butchery of Iraqi citizens 
presages the criminal terror descending there.
    These numbers together far exceed those of atrocity crimes in 
Croatia and Bosnia-Herzegovina in the early 1990s. An international 
criminal tribunal was created for that conflict long before the final 
peace settlement. After more than three years of warfare in Syria and 
that conflict's spillover into Iraq, the aim of achieving peace before 
justice is bankrupt.
``Three tribunals were created to bring to justice perpetrators of 
        heinous crimes committed in Sierra Leone, Lebanon and 
        Cambodia.''
    Referral of Syria and Iraq to the International Criminal Court 
remains preferable, but given that it's unlikely, there are at least 
three other options. The obvious one, for Syria, is to wait until that 
nation's political and judicial systems coexist in a democratic society 
administering fair and equal justice. Experts, including free-minded 
Syrians, envision such a domestic tribunal, but that day seems 
increasingly distant following the collapse of the U.N.-brokered peace 
talks and the staying power of Bashar Assad's autocratic government. 
The country itself may break apart, as might Iraq, which is too fragile 
now to hold credible trials.
    The second option could be a regional criminal court created by the 
Arab League, as proposed earlier this year. While attractive, the Arab 
League approach failed to gain traction.
    The third option, proposed here, would require a treaty between the 
United Nations (acting by General Assembly vote) and a government 
committed to justice for the victims of these two conflicts. 
Neighborhood candidates such as Turkey, Jordan and even Lebanon or 
European nations such as France and Italy come to mind.
    The integrity of such an initiative would rest on the United 
Nations holding firm for an independent court in the negotiations. Any 
such participating government--in union with the U.N.--essentially 
would be intervening judicially in Syria and Iraq by establishing an 
``Extraordinary Tribunal for Syria and Iraq.'' This year, 58 
governments petitioned the Security Council for judicial action on 
Syria, so there already is strong support.
    There also is precedent for such action. Three tribunals were 
created to bring to justice perpetrators of heinous crimes committed in 
Sierra Leone, Lebanon and Cambodia.
    The Special Court for Sierra Leone, which recently fulfilled its 
mandate to prosecute crimes committed during its civil war in the 
1990s, and the Special Tribunal for Lebanon in The Hague, focusing on 
the assassination of Lebanese Prime Minister Rafik Hariri in 2005, are 
international courts created under negotiated treaties between the 
United Nations and Sierra Leone and Lebanon, respectively.
    The Extraordinary Chambers in the Courts of Cambodia is a national 
court situated in Phnom Penh and governed by a U.N.-Cambodia treaty to 
prosecute the atrocity crimes of the Pol Pot regime. It has 
international judges, prosecutors and administrators appointed by the 
U.N. secretary-general, foreign defense counsel and rules employing 
international law. All three tribunals have received most of their 
funding voluntarily from foreign governments, including the United 
States.
    The Lebanon tribunal permits trials in absentia because Lebanese 
law permits such trials. The first prosecution underway in absentia 
concerns five Hezbollah defendants who remain indicted fugitives.
    After World War II, the Nuremberg tribunal, which permitted in 
absentia prosecutions, tried and convicted Martin Bormann, a top Nazi 
official, who has never been captured.
    The likely suspects in the atrocity crimes scarring Syria and 
recently Iraq will resist arrest for years, if not indefinitely. So a 
practical way forward would be for the U.N. to partner with a 
government that already embraces in absentia trials under its domestic 
law. Many European and Arab nations hold such trials (as do Syrian and 
Iraqi courts), so this would not be a novel procedure.
    By ratifying and implementing such a treaty, the participating 
government would consent to the extraterritorial reach of its own law 
over the conflicts in Syria and Iraq. The tribunal could be established 
in the treaty nation or perhaps in The Hague. Faced with international 
crimes of such magnitude, and threats to regional security, such a 
government could justify its actions as protecting its national 
interest and applying conditional universal jurisdiction.
    Formal consent from either Syria or Iraq is unlikely, so that would 
distinguish this effort from the three earlier examples, in which the 
crime scene governments were the treaty partners with the U.N. But that 
should not prevent an international effort to achieve justice. The U.N. 
secretary-general could be tasked to select tribunal personnel from 
among distinguished global jurists.
    Such a tribunal would send a powerful signal that atrocity crimes 
will not be ignored; indeed, they will be prosecuted and punished, even 
though the practical penalty may be the ever-present risk of arrest. If 
an indicted fugitive convicted in absentia one day surrenders or is 
captured and brought to trial before the tribunal, then he or she would 
enjoy all due process rights.
    The Extraordinary Tribunal on Syria and Iraq would be tough to 
negotiate, but so too were its predecessors. Ultimately, justice can 
and must prevail.

David Scheffer is a law professor at Northwestern University and a 
former U.S. ambassador at large for war crimes issues. He is the author 
of ``All the Missing Souls: A Personal History of the War Crimes 
Tribunals.''


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>



  
  
This is an official publication of the
Commission on Security and
Cooperation in Europe.
  
           ***


This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

            ***

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

            ***

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre></body></html>
